<html>
<title> - [H.A.S.C. No. 112-116]FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-116]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                           BUDGET REQUEST FOR

                   NATIONAL SECURITY SPACE ACTIVITIES

                               __________

                              HEARING HELD
                             MARCH 8, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                      U.S. GOVERNMENT PRINTING OFFICE

  73-442                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  










                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                 Steve Kitay, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Aaron Falk, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, March 8, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request for National Security Space 
  Activities.....................................................     1

Appendix:

Thursday, March 8, 2012..........................................    21
                              ----------                              

                        THURSDAY, MARCH 8, 2012
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                   NATIONAL SECURITY SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     4
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Klinger, Gil I., Deputy Assistant Secretary of Defense, Space and 
  Intelligence...................................................     7
Sapp, Betty J., Principal Deputy Director, National 
  Reconnaissance Office..........................................     9
Schulte, Amb. Gregory L., Deputy Assistant Secretary of Defense, 
  Space Policy...................................................     6
Shelton, Gen William L., USAF, Commander, Air Force Space Command     5

                                APPENDIX

Prepared Statements:

    Klinger, Gil I...............................................    66
    Sapp, Betty J................................................    75
    Schulte, Amb. Gregory L......................................    56
    Shelton, Gen William L.......................................    28
    Turner, Hon. Michael.........................................    25

Documents Submitted for the Record:

    Letter to Chairman Turner from Hon. David S. Adams, Assistant 
      Secretary for Legislative Affairs, U.S. Department of 
      State, Dated March 8, 2012.................................    87

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................   114
    Mr. Langevin.................................................   115
    Mr. Ruppersberger............................................   116
    Mr. Sanchez..................................................   108
    Mr. Turner...................................................    91
 
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                   NATIONAL SECURITY SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Thursday, March 8, 2012.
    The subcommittee met, pursuant to call, at 1:30 p.m. in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. By 1:30 if my ranking member has continued to 
be delayed, I will just break the rules and begin at that time, 
and I do know that she is on her way, but that way at least we 
can get started and get some of the statements on the record. 
So we will start at 1:30 in a moment.
    [Brief recess.]
    Mr. Turner. All right. It is 1:30, we are going to go ahead 
and begin with just at least the process of receiving 
statements, and then if my ranking member has not at that point 
made it, we'll hold off on questions and recess, but we will at 
least go through the process of entering statements into the 
record, and I will begin with mine.
    With that, good afternoon, and welcome to the Strategic 
Forces Subcommittee hearing on the fiscal year 2013 budget 
request for national security space activities. Our 
distinguished witnesses this afternoon are General William 
Shelton, Commander of Air Force Space Command; Ambassador Greg 
Schulte, Deputy Assistant Secretary of Defense for Space 
Policy; Mr. Gil Klinger, Deputy Assistant Secretary of Defense, 
Space and Intelligence Office; and Ms. Betty Sapp, Principal 
Deputy Director of the National Reconnaissance Office.
    Thank you all for agreeing to appear before the 
subcommittee and for your service.
    I would like to start by congratulating you on the 
significant accomplishments in the national security space over 
the past year. Due to tremendous efforts of the military, 
civilians, and contractors of the Department of Defense and 
Intelligence Community, we have a number of new critical 
capabilities in orbit. This could not have been accomplished 
without the launch team's efforts, which continued an 
impressive record of 49 out of 49 successful EELV [Evolved 
Expendable Launch Vehicle] launches.
    The NRO [National Reconnaissance Office] has completed 
extremely aggressive and successful campaign of six launches in 
7 months, and although we cannot talk here about the 
capabilities that the NRO brings to the fight, the warfighter, 
the Intelligence Community, and policymakers, they are all 
significant benefits from these launches.
    While there have been great strides, this year's space 
hearing is especially important as we work to understand the 
significant reductions to the space program and its future 
impacts on national security. It is clear that space 
capabilities are an essential element of our military and 
intelligence construct. Space will continue to be a key enabler 
of our national security as the U.S. maintains the ability to 
operate in anti-access, anti-denial environments.
    As such, in the new Defense Strategic Guidance, the 
President and Secretary of Defense listed the ability to 
operate effectively in space and cyberspace as a primary 
mission area of the U.S. Armed Forces, yet the fiscal year 2013 
budget request for Department of Defense space programs was 
reduced by 22 percent from last year's request. I am concerned 
that a significant portion of these funding cuts are taken from 
research and development programs.
    For example, the research and development in the evolved 
advanced extremely high frequency satellite communications 
program is reduced by over 75 percent. This investment is part 
of a broader space acquisition strategy started last year, 
formerly called evolutionary acquisition for space efficiency 
designed to reinvest savings from a block buy into a stable 
research and development program to lower risks for future 
programs.
    Further, the Department proposed to terminate two programs 
that pushed the boundaries for small satellites and 
experimental payloads, the Space Test Program and the 
Operationally Responsive Space office. The Space Test Program 
has driven innovation from the benchtops of defense 
laboratories across the country to on-orbit space capabilities. 
Many space programs that we rely on daily, such as GPS [Global 
Positioning System], have their origins in the Space Test 
Program. I am not satisfied with the justification that has 
been provided for terminating the Space Test Program.
    The Operationally Responsive Space office was established 
by Congress in the defense authorization process to address the 
need to rapidly reconstitute space capabilities under various 
threat scenarios and the desire to shorten the lengthy space 
acquisition cycle. The ORS [Operationally Responsive Space] 
office has responded to urgent warfighter needs and delivered 
critical capabilities. To date, I am not satisfied with the 
Department's plan to support this important mission after the 
proposed ORS termination.
    I am pleased to see that the major spacecraft acquisition 
programs appear to be sufficiently funded in the budget 
request. Continued investment in core capabilities, such as 
GPS, AEHF [Advanced Extremely High Frequency], WGS [Wideband 
Global SATCOM], MUOS [Mobile User Objective System], and SBIRS 
[Space-Based Infrared System] cross multiple services in the 
Department. We must be conscious of the timing of our 
investments and properly align the schedules to deliver the 
spacecraft, ground segment, and user terminals in the most 
effective manner possible, consistent with the needs of the 
warfighter.
    Assured access to space through our launch program remains 
another priority for this subcommittee. The price of launch has 
risen significantly in the past couple years, and the committee 
will continue close oversight as we work to understand the Air 
Force's new acquisition strategy for the EELV program. As 
General Shelton noted in his written testimony, this strategy 
will address industrial base viability and cost growth while 
making provisions to leverage emerging competition.
    Further, as directed in our fiscal year 2012 National 
Defense Authorization Act, we look forward to the President's 
plan for a national rocket propulsion strategy that includes 
the Department of Defense, NASA [National Aeronautics and Space 
Administration], and Intelligence Community efforts. The GAO 
[U.S. Government Accountability Office] recently released a 
report on duplication that noted the space launch acquisition 
process for NASA and DOD [Department of Defense] duplicate one 
another and may not fully leverage the Government's investment.
    In your opening testimonies we would appreciate hearing 
about collaboration in space launch activities across the 
Government to reduce duplication and leverage investments.
    Regarding space policy, I support the Administration's 
decision not to sign on to the draft European Code of Conduct 
for outer space activities. However, I am concerned that the 
stated agreement, with elements of this code of conduct and 
intention to negotiate something similar, could establish the 
foundation for a future arms control regime that binds the 
United States without the approval of Congress, which would 
bypass the established constitutional processes by which the 
United States becomes bound by international law.
    Additionally, I have significant policy and operational 
concerns with the EU [European Union] Code of Conduct with 
regard to our own national security. Earlier today, I received 
a written response from the Administration which was 
unsatisfactory and leaves no choice but to legislate in the 
National Defense Act. The letters that we received will be 
included as part of the record.
    [The information referred to can be found in the Appendix 
on page 87.]
    Lastly, as policymakers, we rely on the assessments 
provided by the National Air and Space Intelligence Center, 
NASIC, to understand foreign space threats. It is clear that as 
our dependency on space programs increases and threats continue 
to develop, our space situational awareness is critical, and 
the space constellation and ground network must be resilient.
    NASIC is our first line of all-source intelligence analysis 
on space threats to form U.S. policy decisions. There are many 
aspects to this important area of national security, and we 
look forward to working together to reach enduring solutions.
    Thank you again for the panel being with us today. You each 
possess a tremendous amount of expertise and you bring a 
tremendous amount of credibility also to the information that 
you provide us, as we look to our Nation's space policies and 
capabilities, and our Nation is better off because of all your 
services, and I greatly appreciate it.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 25.]
    Mr. Turner. With that, I would like to recognize and turn 
to my ranking member, Loretta Sanchez.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. I am sorry for having 
been delayed in getting here. Part of the problem was my 
schedule said it was in 2118, so I walked into a BRAC hearing, 
quickly looked around, and said these are not my kind of 
people. No, just kidding. Missed you, Mr. Chairman, so I knew 
it couldn't be our meeting.
    First of all, thank you, Chairman Turner, and I'd like to 
join the chairman in welcoming General Shelton, Ambassador 
Schulte, Mr. Klinger, and Principal Deputy Director Sapp to 
this hearing on the fiscal year 2013 budget request for 
national security space activities. Thank you all again for 
your service to our country and for appearing before our 
committee. Again, I apologize for my delay.
    Our military superiority and way of life depend on space 
assets for secure communication, navigation, missile warning, 
weather prediction, intelligence, surveillance, reconnaissance, 
so many things. And as we all know, space has become 
increasingly congested, contested, and competitive.
    Our first priority remains to ensure that we preserve and 
protect our space assets in an increasingly fragile 
environment, and in this context, quite the opposite of my 
chairman here, I am encouraged that the Administration has 
announced plans to at least enter into an international 
discussion on the Code of Conduct for Space, one, of course, 
that would meet U.S. requirements and establishes a norm of 
recognized responsible behavior.
    It becomes increasingly necessary to promote and to protect 
the peaceful use of space as additional countries gain access 
to space. And as you know, that is one of the areas over the 
years that I have been really cognizant of, not weaponizing 
space or not doing an arms race in space.
    Second, the challenge of protecting our advantage in space 
is all the more difficult in a fiscally constrained budget 
environment. And under the Budget Control Act, we must get our 
fiscal house in order, and we have got to do a lot more with a 
lot less.
    Reducing costs in the satellite and launch business, while 
preserving mission assurance, presents unique challenges. So I 
know you all have been working very hard on this, and I thank 
you for your contributions in working towards getting this 
under control.
    I am pleased that we have made progress in reducing costs 
through a block-buy, fixed-price contract approach for 
acquisition and driving toward increased competition in launch. 
However, using commercially available technology and services 
and improving synchronization between the procurement of 
satellites and corresponding ground station capabilities remain 
important opportunities to drive down the costs and to maximize 
our efficiency. And, sustaining efficient acquisitions and 
operations requires facilitating the development and the 
testing of these new technologies.
    I am concerned that the Space Test Program, which was 
crucial to the development of GPS and several key 
communications satellites in the military that our military 
relies on today, has been canceled. So, I would like you to 
speak to that a bit.
    And, last, I would also like to hear your thoughts about 
preserving the space industrial base to protect needed 
satellites, ground capability, software and launch vehicles. 
The required and much delayed 1248 report will provide 
important analysis to reform expert control regulation. 
Progress in this area will help U.S. industry be more 
competitive while balancing the need to protect sensitive 
technology. But, we must also always look at the risks to our 
industrial base of updating overly restrictive export control 
regulations.
    So, I look forward to your testimony on these important 
budget issues, and again I thank you for being before us today, 
and I yield back, Mr. Chairman.
    Mr. Turner. Thank you. We will begin now with oral 
statements as a summary to the written statements. I will ask 
that each of the panel members limit their comments to a 5-
minute period.
    And, we will begin with General Shelton.

STATEMENT OF GEN WILLIAM L. SHELTON, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Shelton. Mr. Chairman, Representative Sanchez, and 
distinguished members of the subcommittee, it's an honor to 
appear before you today as the commander of Air Force Space 
Command. It's also my privilege to appear before you alongside 
these colleagues from the national security space business.
    In line with the recently released Department of Defense 
Strategic Guidance, the men and women of Air Force Space 
Command protect our national interests by maintaining a 
singular focus, and that is providing vital space and 
cyberspace capabilities to the warfighter and to our Nation. 
Assured access to space and cyberspace is foundational to the 
conduct of military operations and is crucial to the Nation's 
ability to project power in areas in which our access and 
freedom to operate are challenged.
    Accordingly, the fiscal year 2013 President's budget 
invests in programs that enhance the resiliency and 
effectiveness of our space capabilities; namely, missile 
warning, positioning navigation and timing, satellite 
communications, space situational awareness, and space launch.
    There is an overall reduction in funding levels in the 
space budget, but that is primarily due to fact-of-life 
programmatic changes. First, several programs will ramp down 
developmental activity as they transition to procurement, and 
this is a good news story. Second, Congress funded two wideband 
global satellites in fiscal year 2012, so there is no need to 
fund a satellite in this year's budget. And, third, there is no 
longer funding for the Defense Weather Satellite System since 
this program was canceled in the Fiscal Year 2012 
Appropriations Act.
    In addition to these fact-of-life changes, we made some 
very difficult budget decisions, leading to cuts to some 
modernization programs and restructuring our approach to 
Operationally Responsive Space and space tests.
    We are also pursuing acquisition efficiencies through the 
efficient space procurement actions for the Advanced Extremely 
High Frequency program and the Space-Based Infrared System.
    Finally, we remain committed to working closely with our 
partners in the National Reconnaissance Office and the National 
Aeronautics and Space Administration to bring stability and 
predictability to our launch programs.
    I thank the committee for your continued and steadfast 
support of Air Force Space Command and national security space 
programs, and I look forward to your questions. Thank you, Mr. 
Chairman.
    [The prepared statement of General Shelton can be found in 
the Appendix on page 28.]
    Mr. Turner. Thank you. Mr. Schulte.

    STATEMENT OF AMB. GREGORY L. SCHULTE, DEPUTY ASSISTANT 
               SECRETARY OF DEFENSE, SPACE POLICY

    Mr. Schulte. Chairman Turner, Ranking Member Sanchez, 
subcommittee members, thank you for the opportunity to testify. 
When I testified here 1 year ago, the Secretary of Defense and 
the Director of National Intelligence had just issued the first 
ever National Security Space Strategy. That strategy aims to 
protect the advantages we derive from a domain that is 
increasingly congested, contested, and competitive.
    DOD's new strategic guidance was informed by our space 
strategy and reinforces its key tenets. Both documents stress 
the importance of operating effectively in space, promoting 
responsible behavior, operating when possible with coalition 
and allied forces, and increasing the resilience of our space-
based capabilities.
    I'd like to touch briefly on three important aspects of the 
space strategy.
    First, the National Security Space Strategy and the new 
Defense Guidance both stress the need for resilience in our 
space capabilities in response to emerging anti-access area 
denial challenges. Resilience contributes to deterrence of 
attacks on our space assets. Resilience also enables us to 
continue vital missions, even in a degraded space environment. 
Resilience is not the property of a single system. Rather, it 
is the ability of the whole architecture to provide functional 
capabilities necessary for mission success despite 
environmental adversity or hostile action. Resiliency can be 
achieved in a variety of ways. Examples include hosted 
payloads, commercial augmentation, international cooperation, 
and backup capabilities in other domains.
    Promoting responsible behavior in space is a second key 
aspect of our strategy. The Department of Defense is playing 
the leadership role, including by providing countries and 
companies across the globe with warnings of potential 
collisions in space. We support the State Department's efforts 
to work with the European Union and other spacefaring countries 
to develop an international code of conduct for space 
activities. A widely subscribed code can encourage responsible 
space behavior and single out those who act otherwise, while 
reducing risk of misunderstanding and misconduct.
    The EU's draft is a promising basis for an international 
code. It focuses on reducing the risk of creating debris and 
increasing transparency of space operations. It is not legally 
binding and recognizes the inherent right of self-defense. It 
addresses behavior rather than unverifiable capabilities, and 
better serves our interests than the legally binding ban on 
space weapons proposed by others.
    As we participate in the development of an international 
code, the Department is committed to ensuring that it advances 
our national security. We are also committed to answering your 
questions and keeping you informed.
    Energizing our space industrial base is a third key aspect 
of our new strategy. We can help energize our industrial base 
by allowing U.S. industry to compete internationally for the 
sale of satellites and technologies that are already widely 
available.
    Last year, the Department of Defense and the State 
Department provided an interim assessment of space export 
controls. That assessment concluded that commercial 
communication satellites and related components, with a few 
exceptions, can be moved from the U.S. munitions list to the 
commerce control list without posing an unacceptable security 
risk. The forthcoming final report will identify additional 
items that we believe could be safely moved.
    Indeed, moving widely available items off the munitions 
list will allow the Government to focus its controls and 
enforcement on those technologies that are most sensitive and 
most critical to our national security.
    This approach, higher fences around fewer items, will 
require new legislation. Your support can help energize our 
industrial base and thereby enhance our national security. 
Giving our industrial base new commercial opportunities is 
particularly important at a time of defense spending 
constraints.
    In conclusion, the Department continues to implement the 
National Security Space Strategy. We need your support to 
deploy necessary capabilities, increase their resilience, and 
protect the industrial base so important to our national 
security. Thank you.
    [The prepared statement of Mr. Schulte can be found in the 
Appendix on page 56.]
    Mr. Turner. Mr. Klinger.

  STATEMENT OF GIL I. KLINGER, DEPUTY ASSISTANT SECRETARY OF 
                DEFENSE, SPACE AND INTELLIGENCE

    Mr. Klinger. Thank you. Mr. Chairman, Ranking Member 
Sanchez, and members of the subcommittee, it is my pleasure to 
be before you today. It's also my pleasure to be part of this 
distinguished panel representing the spectrum of disciplines 
that are key to ensuring the success of our space acquisition 
programs.
    Chairman Turner, you already outlined the number of 
successful launches we have had in recent years. I would just 
echo some of the points that you made that these successes 
reflect the combined efforts of a Government and industry team 
which has significantly improved and modernized our space 
capabilities across all mission areas. The support of Congress 
has been instrumental in achieving all of these successes.
    The environment in which we operate continues to evolve and 
transform. This transition has rippled through our space 
acquisition system, which historically focused on performance-
driven, edge of technology and engineering capacity. We 
consistently look to push the edge of the art and science of 
the possible.
    Acquisition of space capabilities frequently and 
consistently had a first and often unfettered call on the 
resources of the Defense Department and Intelligence Community 
as compared to many other capability areas. We simply no longer 
have this luxury. Space capabilities are now integrated and 
inextricably bound up in the nervous system of U.S. military 
forces and intelligence capabilities. Often, maintenance and 
continuity of service have become as or more important than 
pushing the envelope to achieve new performance capabilities. 
In fact, many of our space capabilities have become the dial 
tone of national security, and like the dial tone of our 
telephones, we take their availability and presence for 
granted, noticing only when there is an unplanned service 
interruption. This reality places a special responsibility on 
those of us who work in space acquisition to improve the 
timelines of delivery of new capabilities.
    We also must focus on ensuring our space architectures are 
sufficiently robust and resilient to operate through natural 
and manmade threats. To ensure our dial tone is uninterrupted, 
we are recapitalizing virtually all of our space lines of 
business, and doing so at precisely a time of sharply 
constrained resources and as the Nation remains at war.
    Here are some of the things that we are doing. We are 
putting greater scrutiny on executing oversight earlier in the 
acquisition process so program managers can achieve authority 
to proceed early and then focus their energies on program 
execution rather than coming back to respond to oversight that 
has more limited value.
    We are using fixed-price contracts, more innovative 
contracting, and evolutionary upgrades where those make sense. 
As only one example, by taking advantage of a maturing 
production line and risks that have been well-managed and 
retired from other programs, we are incorporating contract 
restructures into our GPS III and Advanced EHF-5 and -6 
satellite programs. We are pursuing a block-buy for Advanced 
EHF-5 and -6 and developing a plan to use the savings to 
improve the capability of military satellite communications 
overall.
    In GPS III we're modifying the acquisition strategy from a 
cost-plus to a fixed-price contract. The Air Force is also 
modifying its approach to the follow-on to the first block of 
GPS III by providing on-ramps to add capabilities when mature 
and affordable. This is extremely important as we plan ahead to 
maintain the resources to protect our seed corn of promising 
technologies.
    We intend to use competition where and when it makes sense: 
when the United States Government has a firm and stable 
understanding of its requirements; when there is more than one 
industrial vendor with domain knowledge of the capability that 
we seek to acquire; and when the calculated benefits of the 
competition outweigh the inevitable costs that sometimes 
accrue.
    We are stressing affordability even in our ongoing 
programs. We are stressing with our industrial partners to 
place as much emphasis on engineering for cost control and 
affordability as we have historically placed on engineering for 
performance. Let me repeat that. We must place as much emphasis 
on engineering for cost control and affordability as we have 
historically placed on engineering for performance. For us, 
this is no longer a question of can we do something. The 
question before us now is, how well do we have to do something 
and the proportionality or the degree to which we must do it. 
This is a fundamentally different business model for many of us 
in the space acquisition community. At the same time, we must 
maintain essential industrial capacity and acquisition program 
stability and evaluate the opportunities to leverage commercial 
partnerships where prudent.
    Thank you for the opportunity to present the Department's 
efforts to achieve a balanced space acquisition process while 
protecting the stewardship of our resources, and I look forward 
to answering your questions.
    [The prepared statement of Mr. Klinger can be found in the 
Appendix on page 66.]
    Mr. Turner. Thank you. Ms. Sapp.

STATEMENT OF BETTY J. SAPP, PRINCIPAL DEPUTY DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Ms. Sapp. Chairman Turner, Ranking Member Sanchez, and 
distinguished members of the subcommittee, thank you for the 
opportunity to be here today. On behalf of Director Carlson, it 
is my pleasure to appear alongside our mission partners from 
the Department of Defense to discuss national security space 
activities.
    I'd like to start with a few words about the state of the 
NRO today. As Chairman Turner mentioned, last year with our Air 
Force mission partners, we executed the most aggressive launch 
campaign in more than 25 years at the NRO, launching six 
satellites in 7 months. This year with the same determination, 
the same strong partnership with the Air Force launch 
community, we will launch 4 satellites in 5 months.
    Delivering programs on cost and schedule is a matter of 
critical importance to our national security. It is a part of 
keeping our faith with the warfighters in terms of meeting our 
commitments. Evolutionary acquisition practices have been used 
successfully for decades by the NRO. Those have helped us meet 
those acquisition commitments. They've been fundamental to 
reaching an all green scorecard for NRO acquisition. Yes, 
today, every single NRO acquisition program is green for cost, 
schedule, and performance.
    The NRO financial system is also sound. The best evidence 
of this is that for the third year in a row we have sustained a 
clean audit opinion from an outside independent auditor. We are 
also proud of what we do to support our troops in the field.
    Although the specifics of much of what we do cannot be 
discussed in this forum, I can tell you that the NRO has 
developed and deployed more than 25 reference emitters, which 
have since been used more than 13,000 times. These emitters 
have greatly improved the capability of CENTCOM, for example, 
to precisely geolocate threats, allowing U.S. and coalition 
military forces to be extremely precise in targeting those 
threats.
    We not only design and deploy systems to support our 
troops, but also help to train the troops to use them 
effectively as they go off in harm's way. The men and women of 
the NRO stationed around the globe strive to make a difference 
for the troops every single day.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear before you today. Again, on behalf of 
General Carlson, I thank you for your continued support of the 
NRO, and I stand ready to answer any of your questions. Thank 
you.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 75.]
    Mr. Turner. Alright. Thank you so much.
    General Shelton, thank you again for your being a champion 
of protection of our defense access to GPS. Last year Congress 
enacted a provision that prohibited the Federal Communications 
Commission, FCC, from giving the commercial company 
LightSquared the authority to proceed on its proposed network 
until the FCC resolved concerns about widespread harmful 
interference with GPS receivers of the Department of Defense. 
On February 14th the FCC issued a statement that concluded that 
there is no practical way to mitigate potential interference at 
this time. The Commission is waiting on a response from 
LightSquared. General Shelton, is this an isolated matter or 
are there further steps needed to ensure DOD'S spectrum 
continues to be safeguarded in the future?
    General Shelton. Mr. Chairman, first, thank you and the 
members of this committee for your help in protecting that part 
of the spectrum that GPS depends upon. As we go forward--this 
is, again, a physics problem--that part of the spectrum has to 
be protected. Whether that is by policy within the FCC, whether 
that is by legislation, there is no question that we have to 
protect that part of the spectrum.
    Mr. Turner. Good, thank you. The Space Test Program has 
been a national capability since 1965. The program is designed 
to allow engineers and scientists and defense laboratories and 
universities to focus on developing leading-edge, state-of-the-
art capabilities while the Space Test Program initiates and 
delivers these payloads to orbit. To quote the program office, 
``Most DOD space systems flying today started as STP 
experiments or were directly impacted by STP experiments.''
    General Shelton, considering the value that this program 
has provided, can you please explain why the program was 
canceled and what the long-term impacts are.
    And, Mr. Klinger, to account for the STP termination, are 
the budgets for the laboratories across the Department being 
increased to account for the expanded mission of launching 
their payloads? General.
    General Shelton. Mr. Chairman, as we looked at the range of 
things that we do across the space portfolio, and we were asked 
to contribute certainly our share of the $487 billion reduction 
as part of the Budget Control Act, Space Test Program came up 
as one of the things that we might be able to take risk in. The 
reason for that is we have much space research going on in the 
Air Force Research Laboratory. In fact, we have about $370 
million in fiscal year 2012 being spent in the Air Force 
Research Lab for space-related things.
    We also have space-related research going on in Defense 
Advanced Research Projects Agency, DARPA. We also have space 
research going on in the Naval Research Lab. There is also work 
going on inside the Army. As we looked at that across the 
board, we felt like this was a place where we could take risk 
and we had to contribute, again, our fair share as part of the 
resource drawdown.
    Mr. Turner. Mr. Klinger.
    Mr. Klinger. Mr. Chairman, to follow up on General 
Shelton's points, there's a diversified portfolio of space 
research capabilities going on across the laboratory system in 
the Department of Defense. If I may, I would like to take for 
the record your question and get back to you with the specific 
dollar figures so I can give you a more accurate answer and 
picture of the situation.
    Mr. Turner. That will be fine. However, our experience with 
questions for the record is that they take a tremendous amount 
of time for a response. I would hope that you would be able to 
provide a quick response to that since we are hoping to get one 
in the hearing.
    Mr. Klinger. We will do that.
    Mr. Turner. Thank you.
    General Shelton, I have a memorandum that I believe you are 
being provided that is dated December 30, 2011, that states 
that you are interested in the Missile Defense's Precision 
Tracking Space System space situational awareness 
possibilities. And, this is possibly 24 satellite low-earth 
orbit constellation, and I would like if you could speak for a 
moment about the space situational awareness benefits perhaps 
of the Precision Tracking Space System that the Missile Defense 
Agency is looking at. And, I also want to inform you that 
General O'Reilly, just in a hearing that we had Tuesday, when 
we inquired to him about this, asked whether or not, you know, 
he would be working directly with you in coordinating this, he 
said, ``Yes, sir, and that is how I responded back to General 
Shelton, exactly that way.'' Although it was encouraging to me, 
I want to ensure that these two systems, two programs, and 
certainly our two generals are able to coordinate. So if you 
could please comment on that.
    General Shelton. Mr. Chairman, there is an exciting 
possibility here if we go forward with the PTSS [Precision 
Tracking Space System] program. That will fly, again, some 
number of satellites yet to be determined, but up to 24. 
Looking from an equatorial inclination, up above the Earth and 
not only will it be able, because it is an infrared sensor, not 
only will it be able to see missile launches and very 
accurately report on those, but it will also be able to see 
things flying in space. A wonderful space situational awareness 
sensor, and lots of them in space.
    So, if we can cooperate with the Missile Defense Agency, if 
it takes a nickel more, so to speak, to get that capability on 
PTSS, or maybe even you get it for free because of the inherent 
capability, we just want to make sure that that's a design 
parameter that is included to the maximum extent possible. We 
don't want to drive them into a cost position that they don't 
want to be in, but we do want to do everything we can to make 
it an affordable capability as part of the inherent capability 
in the system.
    Mr. Turner. I am not going to ask necessarily did General 
O'Reilly say yes, sir, in response to your memo as he said, but 
have you received a response to the memo that is satisfactory? 
Do you believe that General O'Reilly and the Missile Defense 
Agency will be responding to what clearly is a very important 
issue that you have raised?
    General Shelton. I do, Mr. Chairman. I did get a response, 
and it is about a three paragraph response but, summarized, 
said, yes, sir.
    Mr. Turner. Excellent, excellent. Turning now to my ranking 
member, Ms. Sanchez.
    Ms. Sanchez. Okay.
    General Shelton, Mr. Klinger, Ambassador Schulte, as you 
know, section 1248 of the fiscal year 2010 National Defense 
Authorization Act directed the Secretary of Defense and the 
Secretary of State to carry out an assessment of the national 
security risks of removing satellites and related components of 
the United States munitions list. That report is now almost 2 
years late.
    In the meantime, the U.S. satellite industry, the 
industrial base continues to struggle to keep pace with the 
global competition in what is intensely really an international 
market. So, a study on the health of the space industrial base 
entitled ``U.S. Industrial Base Analysis for Space Systems,'' 
conducted by the Tauri Group under contract to OSD industrial 
policy, cites 11 space technologies of high risk due to the 
absence of U.S. suppliers or a single U.S. supplier. Prudent 
changes to overly restrictive export control regulations could 
have a significant impact on the health and the sustainability 
of our United States satellite industry.
    So, can you tell me again when the section 1248 report will 
be delivered and do you think that there will be significant 
movement in our ability to actually get some export going so 
that we can hold onto our lead in this industry?
    Mr. Schulte. Representative Sanchez, we share your concern 
about the industrial base, and we are--part of the strategy 
that we have, a key part of it is to energize that industrial 
base, and there are ways you can do that through what you buy 
and how you buy it. And Gil Klinger, Mr. Klinger, has talked 
about that a little bit, but we also believe that space export 
control reform has to be a key part of how we energize our 
industrial base to allow our industry to compete on the 
international market in the sale of items and technologies that 
are already widely available and therefore would not hurt our 
national security. So, we support export control reform that 
would allow that to proceed. We will need your help in that 
regard.
    We issued the--yes, ma'am, we are late on the 1248 report, 
perhaps even later than we are sometimes on QFRs. I apologize. 
We had the initial 1248 report come out last year, and in that 
report we indicated a judgment by the Department of Defense and 
Department of State that commercial satellites and their 
components, with a couple of exceptions, could, in fact, be 
moved off of the U.S. munitions list. We owe you the final 
report, which is forthcoming, and we anticipate that that final 
report will indicate other items in what we call category 15, 
the space items, that can be moved off of the munitions list 
onto the commerce control list. For that to actually happen, it 
does require legislation. Unlike in any other industry area, 
this is one where the export control is legislated, so we will 
need your help in that regard.
    But our goal is to allow, with your support, is to allow 
industry to be competitive on the international market in areas 
where technology is already widely available, and then 
concentrate our controls, our licensing, and our enforcement on 
those technologies that are truly sensitive, and by building 
higher fences around higher walls, we think--I am sorry, higher 
fences around fewer items--we think we can accomplish two 
things: help our industry and thereby help our national 
security.
    Ms. Sanchez. So when you say ``forthcoming,'' what does 
that mean?
    Mr. Schulte. Oh, ma'am, I would like to tell you it is next 
week. It is in coordination at this point. Hopefully it will be 
here soon.
    Ms. Sanchez. So forthcoming and it will be here soon; what 
does that mean, Ambassador? Can I expect it in a month, 2 
months, 6 months, 2 years, 4 years?
    Mr. Schulte. I would hope closer to the first part of that 
range. Our goal is to get it to you as soon as we can. I should 
just say, if I may, it's taken longer than anticipated in part 
because we have had to survey all of the items in category 15 
and, believe it or not, there are hundreds of thousands of 
items in category 15. So it has required a very thorough scrub 
to make sure that we are presenting the best possible 
assessment to you, but we do hope that report will come to you 
very soon.
    Ms. Sanchez. Great, we'd like to see it. I know that our 
ranking member, Mr. Smith, is very interested in this also, and 
I think that he or I would carry legislation to allow some of 
this to happen. I know that he and I were the only ones many, 
many years ago when I think it was maybe our first or second 
year on this committee, and we came in together, where we had 
the encryption fights and he and I were, I think, the only 
votes to try to loosen up some of that encryption because, you 
know, coming from States like Washington and California where 
this is predominant, we lose our ability to compete if we don't 
have a market for what we're making. Or, if we have an 
artificial market because we are only supplying to our 
companies or to our defense system, we are still losing our 
creative and competitive and innovative edge. So, I really 
believe that this is a very important issue, and I am sure--I 
don't want to speak for Mr. Smith because he is not in this 
hearing--but, I know the fight we had many, many years ago on 
encryption, and I believe he feels the same way about this, 
that there are some things that we can make a market for by 
export that is already out there or the equivalent, and we 
would like to see that be a priority.
    I want to go back to the EU Code of Conduct. Ambassador, 
you know, there is a real, I don't want to say fear, but 
there's definitely different ideas of what sitting down and 
negotiating on this code of conduct is about. Can you talk a 
little to the--maybe to the cost and the benefits of entering 
into negotiations with the EU on the EU Code of Conduct, and 
what are the risks that we run of not doing something like 
that? And, will our military operations and needs be protected?
    Mr. Schulte. Ma'am, we judge that a code of conduct, not 
the EU code per se, but a code of conduct can actually serve 
the interests of our national security and strengthen our 
security. We asked the joint staff to conduct an operations 
assessment of the existing EU draft, and then based upon that 
assessment we came up with a mitigation strategy that included 
some changes to the code, a subscription statement if we 
subscribe at some point, and some internal guidance that in our 
judgment would make sure that a code would be fully supportive 
of our national security.
    We have briefed the operation assessment and the mitigation 
strategy in detail to your staff. But we judge, you know, the 
State Department, we will be there with the State Department in 
those negotiations, and before a code is finally adopted or 
agreed to, we will conduct another full operations assessment 
with mitigation strategy to make sure it is acceptable to us.
    Some of the concerns we have heard about the code, and they 
are all legitimate, and we have tried to address them. One 
concern is, is this arms control by the back door? This is not 
arms control. I mean, this is a voluntary code. It is not 
legally binding. In fact, one advantage to the code is right 
now Russia and China have been proposing a legally binding arms 
control agreement that we don't think would serve our national 
interests, and this allows us to change the narrative in the 
international discussions, and it takes us off effectively the 
defensive, and it has us talking about how do we promote 
responsible behavior.
    Another concern that has been raised about the code is 
could it somehow limit our missile defense capabilities, 
particularly if we wanted to put some in space? And the answer 
to that is no. The code specifically focuses on behavior, not 
unverifiable capabilities. So we have been very careful to make 
sure that it is in line with our practices, it is in line with 
our planning, and it would support our national security.
    If I could, just briefly: one of the benefits is changing 
the narrative. Another benefit is to encourage all the new 
entrants into the space field to act responsibly, to follow the 
type of procedures we do and make sure they don't create the 
debris or they don't operate matters that risk 
misunderstanding, again with the objective of helping to 
protect space, which effectively is part of the global commons.
    Ms. Sanchez. Mr. Chairman, I have a lot more questions, but 
I'll----
    Mr. Turner. We will do a second round of questions.
    Ms. Sanchez. Thank you.
    Mr. Turner. Mr. Heinrich.
    Mr. Heinrich. Thank you, Chairman. General Shelton and Mr. 
Klinger, I am deeply concerned about the budgetary cuts to 
small satellite programs such as Operationally Responsive Space 
and the Space Test Program in fiscal year 2013. These 
relatively small satellite programs require marginal 
investments, and given the increasingly competitive environment 
in space and the high cost of procuring traditional 
multibillion-dollar satellites, I fear they are penny-wise and 
pound-foolish cuts.
    It makes no sense to me that the Department, in an attempt 
to lower costs, has proposed terminating a program whose whole 
purpose was to lower cost. Specifically, the Department's 
proposed fiscal year 2013 budget calls for the ``. . . 
restructure of Operationally Responsive Space, ORS, program in 
order to provide more responsive and timely space capabilities 
to the warfighter,'' yet the ORS program was terminated.
    Can you please explain to me why this program is being 
canceled, what plans the Air Force has to sustain the ORS 
mission, and how it intends to provide more responsive and 
timely space capabilities to the warfighter without the ORS 
mission and funding?
    General Shelton. Yes, sir. First point I would make is that 
the concept of ORS is not going away. It is continuing, but it 
is continuing across our programs. As opposed to having a 
dedicated program office that is going to work ORS and produce 
individual satellites, we will have ORS concepts spread across 
all of our satellite programs, and I think you will see those 
concepts come out in the future as we look at alternative 
architectures and things like that.
    There are people still working at Kirtland Air Force Base, 
working together just like they have been on ORS concepts. The 
space development and test division that's there will continue 
to work ORS concepts on behalf of all of the Space and Missile 
Systems Center, which is headquartered in Los Angeles. So that 
linkage, which has always been tight, will continue. It is just 
that we won't have a dedicated office.
    As we looked, again, across our entire portfolio, and we 
had to come up with these Budget Control Act reductions, this 
was one of the victims of the Budget Control Act reductions. 
But, at the same time, the concept still continues to live. So, 
I think it is a win-win, given the environment.
    Mr. Heinrich. General, as you know, the ORS imaging 
satellite was launched in June of 2011 in response to a 
requirement in support of U.S. Central Command. It is my 
understanding that ORS-1 has met and exceeded CENTCOM's [U.S. 
Central Command] expectations.
    Can you speak a little more on what the warfighter's 
response has been to this reconnaissance asset?
    General Shelton. Yes, sir. We got a letter from their 
intelligence officer, basically their J2, that said they were 
extremely impressed with the imagery that they had gotten from 
ORS-1. They were not only happy with the responsiveness of it, 
but they were happy with the quality of the imagery that they 
were getting, and it was a warfighting advantage, no question.
    Mr. Heinrich. I want to quickly reiterate Chairman Turner's 
concerns about the Space Test Program and sort of follow up 
with a follow-up question to the ones that he raised.
    Did the Air Force coordinate with the affected Government 
laboratories and organizations that have also benefited from 
this program over the years, so that they could properly plan 
for the change in fiscal year 2013 budget request?
    General Shelton. I think that the coordination that maybe 
we would have wanted to occur did not occur, and the reason for 
that was as we got to the final balancing at the end of the 
President's budget exercise, we flat just didn't have the time, 
plus there was a lot of closed-door sessions that finalized 
that submission. That coordination is going on now. We are 
determining how we will spread the work. We are determining how 
we will gain the same sorts of advantages we got from the Space 
Test Program, albeit by other organizations.
    Mr. Heinrich. That was not exactly the answer I was hoping 
for, but Mr. Chairman, I will yield back to you.
    Mr. Turner. We are going for a second round, and I have got 
a couple questions. This one is to General Shelton and Ms. 
Sapp. On December 20th, Chairman Ros-Lehtinen, Chairman Wolf, 
and I wrote to the Secretary of State inquiring about the 
status of a pending investigation of the suspected illegal 
export of commercial satellite technology to China. I will read 
you the first paragraph of the letter to give you some 
reference.
    We write to Secretary Clinton stating that ``. . . we seek 
your prompt response on a matter of continuing concern of ours, 
efforts to protect the United States from the increasingly 
aggressive activity in space of the People's Republic of China. 
One important and often overlooked part of the U.S. capacity to 
ensure our security in space is the export control regime, 
specifically the International Traffic in Arms Regulation, 
ITAR, which is the responsibility of the Department of State. 
We are concerned that the Department is not moving aggressively 
enough to punish violations of this regime.''
    Are the two of you familiar with this letter?
    General Shelton. I have seen the letter, yes, sir.
    Mr. Turner. Good. What I would like to know is, are you 
familiar with the State Department position that the Department 
is further--excuse me, are you familiar with the State 
Department's position that ``. . . the Department is further 
troubled by the perception of Thales' continued lack of 
cooperation, particularly given the SB-4000 C2 was not, in 
fact, ITAR-free and was exported to China; and can China's 
counterspace programs benefit from U.S. technology and we not 
make certain that China isn't able to obtain that technology''?
    If you would give me your thoughts on both the letter and 
the issue of exporting in violation of ITAR, what that means to 
the Chinese systems.
    General Shelton. All I was going to say is I'm, really not 
as familiar with the issue. I am familiar with the letter, but, 
Mr. Chairman, I couldn't really comment on the details of the 
issue.
    Ms. Sapp. I am afraid I could not as well. I have seen the 
letter, but I am not familiar with what has been done in 
response.
    Mr. Turner. Can I ask if both of you, upon reading the 
letter, had concerns about the circumstances that were laid, 
set out in the letter?
    General Shelton. Certainly anything that would offer a 
comparative advantage would be of concern.
    Mr. Turner. Ambassador, you were raising your hand, so I 
will call on you.
    Mr. Schulte. If that is okay, sir. I am familiar with the 
letter, and we know that the State Department is investigating 
that case. But, the leakage of sensitive technology to 
countries like China has, of course, been foremost in our mind 
as we thought about export control reform, and so in the 1248 
reports that we are providing you, the Department of State and 
Department of Defense are proposing moving from the munitions 
list to the commerce control list only space items that are 
already widely available; and we are not proposing removing the 
Tiananmen Square sanctions that would remain in place even with 
export control reform, meaning that items still on the 
munitions list could not be exported to China and also meaning 
that we would not allow the launch of satellites from Chinese 
launch vehicles.
    Finally, we have also proposed, the Administration has also 
proposed in the case of China for those items moved off the 
munitions list that we still have restrictive licensing and 
export controls on those. So, we are very conscious of China, 
and we have developed our export control proposals with China 
very much in mind. In fact, we believe that to the extent that 
we focus on those technologies that are most sensitive, we can 
increase the focus of our export control and enforcement 
efforts to avoid situations like this in the future.
    Mr. Turner. Well, tell me about the statement of the State 
Department's position, ``The Department is further troubled by 
the perception of Thales' continued lack of cooperation, given 
that the export was, in fact, not ITAR-free, and was exported 
to China.''
    You are in a situation where an export appears to be in 
violation, and you are not getting a whole lot of cooperation, 
it appears. Tell me what the State Department is currently 
doing and your thoughts then on that matter.
    Mr. Schulte. Sir, despite being an Ambassador, I shouldn't 
try to talk for the State Department. I know that they have 
come, Frank Rose, my colleague there, has come to brief your 
staff, but we're clearly concerned at any leakage of sensitive 
technology to China, and support all enforcement efforts there.
    Mr. Turner. Well, Ambassador, let's turn to the issue now 
of the code of conduct. I obviously have constitutional 
concerns. The whole purpose in the Constitution of having 
Senate confirmation is that so one individual would never have 
the ability, power, or authority to internationally bind us by 
law that would in any way restrict our rulemaking, our 
lawmaking.
    The code of conduct, as I understand it, would, although 
perhaps be proposed as nonbinding, in fact would have 
regulations that would be promulgated and would, in fact, 
restrict activities that the United States is doing. So, there 
are serious concerns that people have with respect to a back 
door.
    So, my first question is, if Russia and China don't join, 
since those are two of the states most capable of generating 
debris in outer space, what have we accomplished? And, isn't it 
true that one of the reasons China didn't test an ASAT [Anti-
Satellite weapon] again after 2007, the one that created all 
the debris, was that the international outcry was so great that 
it didn't want to risk that again, meaning that there was an 
effect upon Chinese behavior, and in 2007 there was no code of 
conduct. So, your thoughts on Russia and China?
    Mr. Schulte. Sir, I was actually in Vienna working with the 
Committee on the Peaceful Uses of Outer Space when the Chinese 
tested, and the Chinese Ambassador, who is my colleague, was 
clearly embarrassed and had no talking points for about a week 
after that happened.
    That said, the Chinese continue to develop a very broad 
range of counter space capabilities, including ones that could 
cause debris. They've tested additional systems but in a way 
that has minimized debris. Our concern is that there are more 
and more countries, including China, that are developing space 
capabilities, and to protect the long-term sustainability of 
space we think that a code, not the EU's current code, but that 
a code, if properly negotiated and if we evaluate it and agree 
it's acceptable, can actually help to protect the long-term 
stability of space by encouraging responsibility----
    Mr. Turner. Let's stop there for a second. I love the fact 
that you use the words ``properly negotiated.''
    Mr. Schulte. Right.
    Mr. Turner. Please tell me why that would not involve the 
Senate.
    Mr. Schulte. A code of--sir, a code of conduct is a 
voluntary code. An example of that, for example, is The Hague 
Code of Conduct, which was negotiated by the last 
administration and subscribed to by them.
    Mr. Turner. Actually, let's discuss that because you have 
used that as an example before. You've pointed to The Hague 
Code of Conduct against ballistic missile proliferation to 
suggest that the Bush administration favored this nonbinding 
approach and therefore that it must be fine. You measure the 
goodness of the policy on whether the Bush administration 
favored it as a course of action, and I am confused. The joint 
staff analysis we have states that if the United States were to 
make a good-faith effort at implementing the requirements of 
such a code, your code, the one that you want to pursue, there 
may be adverse operational impacts on U.S. military and 
Intelligence Community space operations. There is a straight-up 
admission that our current operations would be impacted.
    What impact on U.S. military and intelligence operations 
was there from The Hague Code of Conduct? What binding 
regulations were issued on the Department of Defense and IC as 
a result of U.S. subscription to The Hague Code, and can you 
provide any copies of such regulations that came out of The 
Hague Code? Apparently when you responded to a staff inquiry on 
this, you referred to an Ambassador Bolton speech. Obviously 
that is an insufficient answer, and we would like you to answer 
more directly.
    And, what was it that the U.S. was doing in 2002 that it no 
longer did as a result of subscription to The Hague Code? Were 
we proliferating ballistic missiles before the code? But yet, 
and I want to make it very, very clear, the questions are being 
asked to you because when we look at the unclassified excerpt 
from the Executive Summary of the Joint Staff Operations 
assessment of the draft EU code, it states, ``If the United 
States were to make a good-faith effort at implementing the 
requirements of the draft code, there could be operation 
impacts on U.S. military space operations in several areas.''
    So to do your comparison, the code of conduct with respect 
to space has an impact on operations that we are doing, would 
have regulations promulgated under it, and according to your 
description of it, would bypass the Senate, the nonbinding 
Hague Code had no such regulations, impacted no such operations 
of the United States, and, you know, clearly did not result in 
a shift of any policy or operations of the United States. They 
are really not comparative, are they?
    Mr. Schulte. Mr. Chairman, with The Hague Code of Conduct, 
as you said, I am not aware of any regulations that were issued 
afterwards to change our behavior. There was a procedure put in 
place whereby we started to notify the launches of ICBMs 
[Intercontinental Ballistic Missiles] and SLBMs [Submarine-
Launched Ballistic Missiles] and space launches. And, by the 
way, as part of that procedure we also put in place a mechanism 
so that in rare exceptions if we thought it didn't serve our 
national security interests to make those notifications, we 
could not make them, and in many ways that is sort of--that is 
similar----
    Mr. Turner. So a courtesy rather than a regulation, rather 
than as this statement is, that the code you are advocating 
for, that it would impact U.S. military space operations in 
several areas?
    Mr. Schulte. Well, what we have--so we put in a procedure 
to notify. In a way, that was the only impact, and we made sure 
there is an exception clause. With an International Code for 
Outer Space Activities, we asked the joint staff to conduct 
that operations assessment, and based upon that we worked with 
them to come up with a mitigation strategy. And part of the 
strategy is to make sure that we make clear in developing the 
code and in subscribing to the code, should we get to that 
point, that this is a voluntary code and that we will carry it 
out consistent with our national security interests.
    Mr. Turner. I have to tell you once again, as I said in my 
opening statement, anything that the Administration does that 
is a negotiation in the establishment of an international code 
that is going to have an impact on our military operations, I 
believe, and I think we believe, I believe this Congress is 
going to believe, ought to constitutionally include the Senate. 
And, it is going to be a subject matter that we will be taking 
up with the National Defense Authorization Act.
    Turning to my ranking member, Ms. Sanchez.
    Ms. Sanchez. Thank you, Chairman Turner. General Shelton, 
will sensors that can improve detection of a nuclear detonation 
be incorporated into the SBIRS satellite? Why or why not? What 
is the cost? And when can we expect the report on this issue 
that is due to Congress?
    General Shelton. Miss Sanchez, I am trying to recall where 
we are in the decision process on that, but I believe we have 
decided that we do not need to include those sensors on SBIRS 
satellites, and that is because we've got sufficient capability 
on other satellites, including GPS satellites that have a very 
robust nuclear detonation detection system on them. As far as 
the report, when the report might be here, I can't comment on 
that. Maybe someone else on the table here.
    Apparently we are all shaking our heads. We'll take that 
one for the record if you don't mind.
    Ms. Sanchez. Okay, and if you could get back to me in a 
timely manner, because I do agree with Mr. Turner, when we ask 
for things for the record, we rarely get them. Sometimes we get 
them a couple years later.
    Ms. Sanchez. General Shelton and Ms. Sapp, launch is 
becoming much more expensive, and although United Launch 
Alliance has an excellent track record for successful launches, 
it currently has a monopoly on our launch services. New 
entrants such as SpaceX may be able to compete if they can 
prove reliability and mission assurance.
    I know we had a track that we were going down to try to 
include, hopefully, some sort of competition into the arena. 
But with the current acquisition plan, will it allow new 
entrants to compete in 2015 if they can prove mission 
assurance? And if not, what's the earliest time that the new 
entrants would be able to compete?
    General Shelton. Ma'am, our strategy is defined; our 
acquisition approach is still being defined. We have asked 
United Launch Alliance to provide a matrix of costs that would 
include anywhere between 6 to 10 boosters over a period of 3 to 
5 years, and we are looking at that, where the sweet spot might 
be there not only for cost but also in readiness of these new 
entrants that enter into competition. During that period, 
regardless of what that period is, we will continue to track 
the progress of SpaceX and Orbital and others that are building 
new boosters, to see if some of them might be ready for, even 
during this initial period, to compete for launches.
    There are two launches specifically that we have set aside 
that we think people might be able to compete for during that 
time. If that occurs, great, we will use those as certification 
opportunities for them, at least on the path towards 
certification. But it is really up to the new entrants, their 
technical progress, their ability to show that they are ready 
to take national security payloads. And, as we come through 
that process, we are pretty risk-averse in terms of national 
security payloads, but these two that we have set aside we 
believe that we can take a little bit more risk.
    Ms. Sanchez. And so the current budget cuts that are 
projected over those next 2 to 3, 4 years, are they not--they 
are not going to impact the schedule? I think you and I sat 
down, or somebody sat down with the whole schedule of where 
those sweet spots would be, so nothing has changed with respect 
to that because of the budget constraints?
    General Shelton. No, Ma'am. Nothing has changed. We are 
still on track for those two launches for sure, and then we are 
developing again our acquisition approach to the continuation 
of the EELV.
    Ms. Sanchez. Thank you, General. I have a couple more 
questions for the record.
    Mr. Turner. I just have one more question.
    On second thought, we will have questions perhaps for the 
record also. I want to thank you again for both your patience, 
your participation, and your leadership. And, General, thank 
you again for your work on GPS and ensuring that that will 
continue to be an asset for the Department of Defense. Thank 
you.
    [Whereupon, at 2:34 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 8, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2012

=======================================================================

      
      

                    Statement of Hon. Michael Turner

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

         Budget Request for National Security Space Activities

                             March 8, 2012

    Good afternoon. I want to welcome everyone to the Strategic 
Forces Subcommittee's hearing on the Fiscal Year 2013 budget 
request for national security space activities. Our 
distinguished witnesses this afternoon are:

        <bullet> LGeneral William Shelton, Commander of Air 
        Force Space Command;

        <bullet> LAmbassador Greg Schulte, Deputy Assistant 
        Secretary of Defense for Space Policy;

        <bullet> LMr. Gil Klinger, Deputy Assistant Secretary 
        of Defense, Space and Intelligence Office; and

        <bullet> LMs. Betty Sapp, Principal Deputy Director of 
        the National Reconnaissance Office.

    Thank you all for appearing before this subcommittee.
    I would like to start by congratulating you on the 
significant accomplishments in national security space over the 
past year. Due to tremendous efforts of the military, 
civilians, and contractors of the Department of Defense and 
Intelligence Community, we have a number of new critical 
capabilities on orbit. This could not be accomplished without 
the launch teams' efforts, which continued an impressive record 
of 49 out of 49 successful EELV launches.
    The NRO has completed an extremely aggressive and 
successful campaign of 6 launches in 7 months. And although we 
cannot talk here about the capabilities that the NRO brings to 
the fight, the warfighter, intelligence community, and 
policymakers are all significantly benefiting from these 
launches.
    While there have been great strides, this year's space 
hearing is especially important as we work to understand the 
significant reductions to the space program, and its future 
impact on national security.
    It is clear that space capabilities are essential elements 
of our military and intelligence construct. Space will continue 
to be a key enabler of our national security as the U.S. 
maintains the ability to operate in anti-access, anti-denial 
environments. As such, in the new Defense Strategic Guidance, 
the President and Secretary of Defense listed the ability to 
operate effectively in space and cyberspace as a primary 
mission area of the U.S. Armed Forces. Yet, the fiscal year 
2013 budget request for Department of Defense space programs 
was reduced by 22 percent from last year's request.
    I am concerned that a significant portion of these funding 
cuts are taken from research and development programs. For 
example, the research and development in the Evolved Advanced 
Extremely High Frequency satellite communications program is 
reduced by over 75 percent. This investment is part of a 
broader space acquisition strategy started last year, formerly 
called Evolutionary Acquisition for Space Efficiency, designed 
to reinvest savings from a block buy into a stable research and 
development program to lower risk for future programs.
    Further, the Department proposed to terminate two programs 
that push the boundaries for small satellites and experimental 
payloads--the Space Test Program and the Operationally 
Responsive Space office. The Space Test Program has driven 
innovation from the bench-tops of defense laboratories across 
the country to on-orbit space capabilities. Many space programs 
that we rely on daily, such as GPS, have their origins in the 
Space Test Program. I am not satisfied with the justification 
that has been provided for terminating the Space Test Program.
    The Operationally Responsive Space office was established 
by Congress in the Defense Authorization process to address the 
need to rapidly reconstitute space capabilities under various 
threat scenarios and the desire to shorten the lengthy space 
acquisition cycle. The ORS office has responded to urgent 
warfighter needs, and delivered critical capabilities. To date, 
I am not satisfied with the Department's plan to support this 
important mission after the proposed ORS termination.
    I am pleased to see that the major spacecraft acquisition 
programs appear to be sufficiently funded in the budget 
request. Continued investment in core capabilities, such as 
GPS, AEHF, WGS, MUOS, and SBIRS, remains one of the top 
priorities. Yet, as some program acquisitions cross multiple 
services in the Department, we must be conscious of the timing 
of our investments and properly align the schedules to deliver 
the spacecraft, ground segment, and user terminals in the most 
effective manner possible, consistent with the needs of the 
warfighter.
    Assured access to space through our launch program remains 
another priority for this subcommittee. The price of launch has 
risen significantly in the past couple years, and the committee 
will continue close oversight as we work to understand the Air 
Force's new acquisition strategy for the EELV program. As 
General Shelton noted in his written testimony, this strategy 
will address industrial base viability and cost growth while 
making provisions to leverage emerging competition. Further, as 
directed in our Fiscal Year 2012 National Defense Authorization 
Act, we look forward to the President's plan for a National 
Rocket Propulsion strategy that includes the Department of 
Defense, NASA, and Intelligence Community efforts. The GAO 
recently released a report on duplication that noted the space 
launch acquisition processes for NASA and DOD duplicate one 
another and may not fully leverage the Government's investment. 
In your opening testimonies, we would appreciate hearing about 
collaboration in space launch activities across the Government 
to reduce duplication and leverage investments.
    Regarding space policy, I support the Administration's 
decision not to sign onto the draft European Union Code of 
Conduct for Outer Space Activities. However, I am concerned 
that your stated agreement with elements of this Code of 
Conduct and intention to negotiate something similar could 
establish the foundation for a future arms control regime that 
binds the United States without the approval of Congress, which 
would bypass the established constitutional processes by which 
the United States becomes bound by international law. 
Additionally, I have significant policy and operational 
concerns with the EU Code of Conduct with regard to national 
security. Earlier today, I received a written response from the 
Administration, which was unsatisfactory and leaves no choice 
but to legislate in the National Defense Authorization Act. The 
letters will be added as part of the record.
    Lastly, as policymakers, we rely on the assessments 
provided by the National Air and Space Intelligence Center 
(NASIC) to understand foreign space threats. It is clear that 
as our dependency on space systems increases and threats 
continue to develop, our space situational awareness is 
critical, and the space constellation and ground network must 
be resilient. NASIC is our first line of all-source 
intelligence analysis on space threats to form U.S. defense 
policy decisions. There are many aspects to this important area 
of national security and we look forward to working together to 
reach enduring solutions.
    Thank you again for being with us today. You each possess a 
tremendous amount of expertise and insight on our Nation's 
space policy and capabilities, and our Nation is better off as 
a result of your service. I look forward to your testimony.





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 8, 2012

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1) General Shelton, if provided with the authorization 
and appropriation for the Efficient Space Procurement block buy of two 
Space Based Infrared Systems, what are the expected cost savings and 
the plan to reinvest those savings into modernization initiatives for 
future missile warning satellites? Further, how can we be assured those 
savings don't become a bill payer as seemed to happen to the AEHF 
savings in the FY13 budget request?
    General Shelton. 1) The staff of the Cost Assessment and Program 
Evaluation office in the Office of the Secretary of Defense estimates 
projected savings of $521M through implementation of Efficient Space 
Procurement for Spaced Based Infrared Systems (SBIRS) Geosynchronous 
Earth Orbit Satellites 5 and 6. We applied $289M of this savings across 
the Future Years Defense Program for the SBIRS modernization 
initiatives. The remaining projected savings were applied to higher DOD 
priorities. The SMI funding is set at an affordable level to produce 
and sustain current Program-of-Record systems and to invest in 
affordable alternatives for evolving current capability. The SMI plan 
is based on strategic guidance, an established architectural path, 
documented requirements and a solid program execution plan.
    Mr. Turner. 2) General Shelton, the GAO found that satellites, 
ground control systems, and user terminals in most of DOD's major space 
system acquisitions were not optimally aligned, leading to 
underutilized satellites and limited capability provided to the 
warfighter, in some cases for periods measured in years. What is DOD 
doing to address the synchronization problems, particularly with GPS M-
Code user terminals, AEHF Family of Beyond the Line of Sight Terminals, 
SBIRS staring sensor, and Navy MUOS JTRS terminals? Has OSD or the Air 
Force measured the cost in terms of delay or inefficiencies? What is 
the plan to close these gaps and more efficiently plan to fully utilize 
the resources available?
    General Shelton. 2) The Air Force coordinates fielding schedules 
with Combatant Commands for all weapons systems. This interaction is 
critical toward mitigating the impact of capability delays, which 
cannot be quantified in terms of cost alone.
    Air Force Space Command is focused on delivering advanced 
Positioning, Navigation and Timing (PNT), protected satellite 
communications, and missile detection/missile warning capabilities to 
the warfighter. In November 2011, the DOD approved an incremental 
acquisition strategy for the next generation of Military GPS User 
Equipment (MGUE) capable of exploiting the newest, most advanced 
military GPS signal. Current GPS enterprise acquisition schedules show 
the 24th Military-code capable satellite launching by FY18, with full 
rate production of the first units of Increment MGUE in FY17.
    With the Advanced Extremely High Frequency (AEHF) program, 
synchronization is improving due to the successful upgrade of the 
Army's Secure Mobile Anti-jam Reliable Tactical Terminal and the Navy 
Multi-band Terminal. The Air Force is restructuring the Family of 
Beyond Line of Sight Terminals program. With this restructure, we are 
pursuing the highest priority terminals first to ensure protected 
communications for the air (E-4B and E-6B) and ground command post 
terminals with Presidential and National Voice Conferencing 
capabilities.
    Finally, the first Space Based Infrared Systems (SBIRS) 
Geosynchronous Earth Orbit satellite is undergoing a rigorous 
operational certification process. Preliminary test results show the 
space vehicle is meeting or exceeding performance requirements. The 
staring sensor is undergoing preliminary calibrations--at the payload 
level, it is detecting targets 25% dimmer than expected and the data 
are being shared with the research and development and Technical 
Intelligence communities. The DOD funded initiatives, separate from the 
program of record, will deliver interim capabilities to process the 
data from the staring sensor in FY15/16. The sensor will contribute to 
the most stressing missile warning/missile defense performance 
requirements with full mission operations after acceptance of the final 
SBIRS Increment 2 ground system in FY18.
    Mr. Turner. 3) General Shelton, what is the purpose and value of 
the Counter Space Technology List (CSTL) developed by the State 
Department and the Aerospace Corporation? Should the CSTL be integrated 
into the export control reform process?
    General Shelton. 3) The Counterspace Sensitive Technology List 
(CSTL) is an ongoing research and analytical project, intended as a 
technical information aid to support export licensing and 
nonproliferation decisions. As such, we understand it is a proven 
reference tool. It was one of the many references used by the members 
of the Category XV Technical Working Group to develop and justify the 
technical performance parameters recommendations in the proposed update 
to United States Munitions List Category XV Spacecraft Systems and 
Associated Equipment published as Appendix 1 of the final 1248 Report. 
The Department of Defense, through the Defense Technology Security 
Administration, and other departments and agencies are working with the 
State Department to ensure the completeness of the CSTL.
    Mr. Turner. 4) The Operationally Responsive Space office is 
proposed for termination in the fiscal year 13 budget. Please explain 
why this program is being cancelled, what plans the Air Force has to 
sustain the ORS mission and how this will provide more responsive and 
timely space capabilities to the warfighter?
    General Shelton. 4) We plan to restructure the ORS program to 
incorporate the ORS tenants of responsiveness and resiliency across our 
space programs, to include programs such as the Advanced Extremely High 
Frequency Satellite, Space Based Infrared Systems, Global Positioning 
System III Operational Control Segment, Space Control Technology 
Insertion, and Technology Transfer programs. Beginning in 2013, we plan 
to meet warfighter needs for responsive space capabilities through 
programs of record and mechanisms such as the Joint Urgent Operational 
Needs process.
    The Space and Missile Systems Center's Space Development and Test 
Directorate is sustaining the ORS-1 space vehicle and ground components 
through the life of the system--with approximately $7M/year of Overseas 
Contingency Operations funds.
    Mr. Turner. 5) The Space Test Program has been a national 
capability relied on by laboratories and universities since 1965. Many 
critical space-based programs, such as GPS, have their origins in 
technology that was launched on STP missions. Please explain why the 
Department is requesting to cancel this critical program that provides 
the seed corn for future capabilities. Is there any other R&D 
organization that performs the mission of STP, integrating and 
launching payloads across the Department and coordinating experiments 
to fly aboard the International Space Station? Further, did the Air 
Force coordinate with the affected Government laboratories and 
organizations so they could properly plan for this in the FY 13 budget 
request?
    General Shelton. 5) The Space Test Program funding was eliminated 
due to higher Department of Defense priorities. We are coordinating 
with affected agencies to ensure space experiment work continues under 
the auspices of the Defense Advanced Research Projects Agency, the Air 
Force Research Laboratory and other Service research laboratories.
    Mr. Turner. 6) The Secretary of Defense in the Annual Industrial 
Capabilities Report to Congress, dated September 2011, highlighted 
DOD's concern for the U.S. Liquid Rocket Propulsion Industrial Base 
(LRPIB), and specifically the Air Force Evolved Expendable Launch 
Vehicle (EELV) program's reliance on Russian engines. What are your 
perspectives on the need to invest in domestic liquid rocket engines 
for use on our critical National Security Space launch missions? What 
must be done and when in order to preserve the critical U.S. liquid 
rocket engine industrial base and the unique science and engineering 
capability that supports this industrial base?
    General Shelton. 6) The Air Force is operating engines designed 
decades ago. In many instances, these engines are operating near the 
upper-margin of the performance capabilities--this is a mission 
assurance concern.
    We are pursuing several avenues to modernize rocket engine 
technology. First, we are looking toward design of an upper stage with 
increased performance margins. Second, the Air Force Research 
Laboratory is developing next-generation technologies to include a new, 
domestically produced hydrocarbon main engine for eventual 
incorporation into the existing launch vehicle fleet. Finally, we are 
monitoring the progress of civilian companies entering the commercial 
unmanned and manned spaceflight markets.
    In addition, both the Air Force EELV acquisition and new entrant 
strategies contribute to the preservation of the LRPIB and the science 
and engineering capability supporting the industrial base. The steady-
state procurement rates of the acquisition strategy fosters efficient 
execution and enables companies to retain workforce expertise, 
providing stability and predictability to the EELV program, and thus to 
the LRPIB. The New Entrant Strategy encourages competition, which also 
contributes to the LRPIB.
    Mr. Turner. 7) Should the launch schedule slip, as has historically 
been the case, how will the excess inventory the Air Force builds up 
effect competition from New Entrants? How much generally are the 
storage costs per booster, and who pays those costs?
    General Shelton. 7) Most upcoming Air Force launches are recurring 
flights for programs that have already launched satellites supporting 
their respective missions; therefore, these satellites are very 
similar, if not identical, to their predecessors. This reduces the 
chance of development or production delays, and increases the 
likelihood these satellites will launch on schedule. We do not foresee 
a need to store launch vehicles. In addition, we are working the Atlas 
``white tail'' concept to provide a common booster core for Atlas 
rockets, and the Delta Fleet Standardization to introduce a common RS-
68 engine across all Delta IV variants. These two efforts will increase 
booster assignment flexibility and reduce launch delays.
    Mr. Turner. 8) What is the status of the new acquisition strategy 
for the Evolved Expendable Launch Vehicle, and what is the specific 
information that will be gathered to inform the final decision the 
block buy contract? What are the expected savings from the new 
strategy?
    General Shelton. 8) The EELV Acquisition Strategy, approved 
November 24, 2011, addresses the challenges of lowering costs while 
maintaining mission success through an annual booster commitment and 
infusing competition into the program. The success of this strategy is 
based on obtaining accurate information prior to contract award.
    The FY13 Phase 1 Buy request for proposal requires United Launch 
Alliance to price both ranges in periods of performance, three to five 
years for hardware and up to seven years for capability, and quantities 
of six to ten ``core'' launch vehicles per year with the ability to 
launch eight to ten missions per year. This approach allows the 
government to balance launch vehicle production rate and length of 
commitment decisions. It enables the government to secure the best 
price per launch service (includes launch vehicle and associated launch 
support), and provides stability and predictability for the EELV 
program. Savings from the new strategy will depend on the delivered 
proposal and the final rate and quantity of launch services selected by 
the Air Force.
    Mr. Turner. 9) When do you assess that a new entrant will meet the 
established criteria for national security space EELV-class launches?
    General Shelton. 9) We expect at least one new entrant ready to 
compete for launches in the FY16-17 timeframe. The Air Force conducted 
a New Entrant Industry Day on December 1, 2011, with 100 attendees 
representing 15 aerospace companies and their affiliates and five 
government partners. Breakout sessions involved discussions with four 
potential new entrants. To date, the Air Force has received one 
Statement of Intent (SOI) for certification and we expect additional 
SOIs later this year. We are in the process of evaluating the SOI 
received and do not have a projected certification date yet.
    No new entrant has a demonstrated capability to launch EELV-Class 
payloads. To facilitate the certification of potential new entrants, 
the Air Force identified two opportunities on which new entrants may 
bid: the Space Test Program-2 and the Deep Space Climate Observatory. 
These EELV-class missions will provide an opportunity for potential new 
entrants to prove their capability for certification. The certification 
timeline depends on the new entrants; specifically, their technical 
progress, the quality and sufficiency of the data they provide and a 
successful flight history. The Air Force is committed to certifying new 
entrants for EELV launches as soon as feasible.
    Mr. Turner. 10) GAO recently released its annual report on 
duplication, overlap, and fragmentation and reported that ``Space 
launch acquisition processes for NASA and DOD are not formally 
coordinated, duplicate one another, and may not fully leverage the 
Government's investment because the Government is not acting as a 
single buyer.'' Please identify cost savings opportunities and identify 
what is being done to reduce duplication and leverage investments?
    General Shelton. 10) The Air Force is collaborating with NASA to 
find common solutions for launch needs. In 2010, NASA and the Air Force 
conducted a joint study to assess the feasibility of a mutual liquid 
oxygen and kerosene engine for EELV and the Space Launch System. The 
Liquid Propulsion Steering Group was created in February 2012 to act as 
an advisory board responsible for integrating Air Force liquid rocket 
propulsion requirements with the propulsion needs of external 
organizations and agencies. We are incorporating NASA's engine 
requirements for a Cryogenic Propulsion Stage as we explore options for 
replacing the EELV upper stage engine. At the technical level, we are 
active participants in each other's design reviews, and DOD and NASA 
are working together on the FY12 National Defense Authorization Act 
National Rocket Propulsion Study.
    Mr. Turner. 11) There are potential program areas where the DOD and 
NASA may have common or similar requirements for evolving space launch 
capabilities. These include high-thrust liquid oxygen--kerosene rocket 
propulsion systems/boosters for use on next-generation EELV and NASA's 
Space Launch System (SLS) Advanced Booster. How have the DOD and NASA 
collaborated toward establishing common requirements whereby a common 
liquid booster could be established for use on both programs? Are there 
active efforts between the DOD and NASA to coordinate Research and 
Development roadmaps so that maximum space launch benefits can be 
obtained? If yes, please describe some examples of these coordinated 
actions and ongoing collaborations.
    General Shelton. 11) The Air Force continues to collaborate with 
NASA to find common solutions for launch needs. In 2010, NASA and the 
Air Force collaborated on an extensive study to assess the feasibility 
of a mutual liquid oxygen and kerosene engine for EELV and the Space 
Launch System. In February 2012, the Liquid Propulsion Steering Group 
was created to act as an advisory board responsible for integrating Air 
Force liquid rocket propulsion requirements with the propulsion needs 
of external organizations and agencies. We are incorporating NASA's 
engine requirements for a Cryogenic Propulsion Stage as we explore 
options for replacing the EELV upper stage engine. At the technical 
level, we are active participants in each other's design reviews, and 
DOD and NASA are working together on the FY12 National Defense 
Authorization Act National Rocket Propulsion Study.
    Mr. Turner. 12) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the new acquisition strategy protect against overly high launch 
vehicle prices compared with mission assurance changes/efficiencies 
resulting from these assessments? Further, please outline how mission 
assurance for national security space missions differs from commercial 
space missions.
    General Shelton. 12) Mission assurance is a rigorous, continuous 
technical and management process employed over the life-cycle of a 
launch system to ensure mission success. There are two distinct facets 
to mission assurance. Integrated mission assurance is accomplished by 
the organizations involved in the launch vehicle design, production, 
testing and launch processing. Independent mission assurance, a crucial 
component of the success of National Security Space launches, is often 
identified with ``mission assurance costs.'' This effort includes a 
number of technical reviews and analyses tailored for each mission, 
enabling a launch readiness independent assessment. It comprises less 
than 5% of the launch enterprise total costs, yet its value to the 
overall enterprise is hard to overstate. In fact, the Space Launch 
Broad Area Review, conducted just over ten years ago, recommended we 
return to in-depth mission assurance following a series of launch 
failures.
    The Air Force will continue to encourage efficiencies without 
impacting mission success. The current launch capability contract, 
signed June 2011, includes a mission success performance incentive 
ensuring focus on mission requirements and a cost control incentive 
motivating the contractor to find efficiencies within its operations.
    The principal difference between mission assurance requirements for 
national security space missions and commercial missions is summarized 
by the impact realized by a launch failure. Most, if not all, 
commercial launches are privately insured, and launch failures 
represent lost revenue. National Security Space launches are 
indemnified by the U.S. Government, and launch failures represent a 
significant cost to the taxpayers, as well as the mission impact of the 
loss of that particular satellite--a loss that could take many years to 
overcome.
    Mr. Turner. 13) Does DOD plan to develop its own price estimates 
for varying block buy quantities and contract lengths, or will it 
solely rely on the price proposals from United Launch Alliance?
    General Shelton. 13) Yes. The Air Force will follow Federal 
Acquisition Regulation Part 15 negotiation processes to develop and 
negotiate fair and reasonable prices. Auditors from the Defense 
Contract Audit Agency will support the Air Force negotiation team. In 
addition, a joint team composed of the National Reconnaissance Office 
Cost Analysis Improvement Group and the Air Force Cost Analysis Agency 
is performing analyses of costs for the RS-68 main engine, RL-10 upper 
stage engine, systems engineering, program management and launch 
operations. Data gathered from these reviews will inform the Air Force 
negotiating position.
    Mr. Turner. 14) Can you discuss any Department efforts to establish 
a longer-term plan for MILSATCOM? What is the projected demand in 
narrowband, wideband, and protected communications and how does the 
Department plan to meet it? What is the Department doing to ensure it 
is procuring Ku-band commercial satellite communications in the most 
efficient manner?
    General Shelton. 14) In the near term, we are maximizing our use of 
Ku-band commercial satellite communications by using the Defense 
Information Systems Agency's Future Commercial Satellite Communications 
Services Acquisition contract. In the longer term, we have analyzed 
future demand for these capabilities based on approved Defense Planning 
Scenarios. We are now executing the third and final phase of the 
Resilient Basis for Satellite Communications in Joint Operations Study 
to determine the best architectures to meet the future demand. The 
architectures under consideration include combinations of traditional 
military communication satellite systems and those acquired through 
innovative commercial lease/buy opportunities.
    Mr. Turner. 15) What is the right balance of organic space 
capability and commercially leased or hosted capability? How much of 
our space capability is currently being provided by commercial 
providers? How can we increase the opportunities for hosted payloads to 
save costs and bring capability online more quickly?
    General Shelton. 15) In accordance with the 2010 National Space 
Policy, the Air Force is pursuing commercial space capabilities to the 
``maximum extent possible'' when those capabilities meet our 
requirements and are cost-effective. We are investigating opportunities 
to augment military space capabilities such as environmental 
monitoring; Positioning, Navigation and Timing; space-based imagery; 
and launch with commercial services. In addition, the Space and Missile 
Systems Center's Hosted Payload Office is identifying cost-effective 
hosting opportunities in the commercial market and developing an 
efficient business approach and contract vehicle for hosted payloads. 
Their efforts will lead to recommendations for the future.
    Mr. Turner. 16) As the responsible steward of GPS, what does the 
Air Force see as the future of GPS in a fiscally constrained 
environment? What alternative methods and technologies are being 
evaluated to cost-effectively meet the GPS mission?
    General Shelton. 16) Air Force Space Command is moving forward with 
cost-efficient strategies while balancing warfighter needs and the 
mandate to preserve GPS as the world's Positioning, Navigation and 
Timing gold standard. We are pursuing studies in Ground Segment 
automation and dual manifest launches for manpower and launch cost 
savings. The Department of Defense's recent GPS Enterprise 
Modernization Analysis of Alternatives is on-going and will identify 
cost-effective capability modernization alternatives. In the longer-
term, we are tracking innovative technology alternatives, such as 
terrestrial-based augmentation and highly-accurate inertial navigation, 
for potential inclusion into the GPS Enterprise as these technologies 
mature.
    Mr. Turner. 17) The Department requested only $2M in FY13 for 
``Weather Satellite Follow-On'' efforts, and projected no money after 
that in the Five Year Defense Plan. While we recognize that the 
Department is relying on the Defense Meteorological Satellite Program 
to meet its near-term needs, what is the longer term plan to meet this 
critical mission area?
    General Shelton. 17) The Air Force is extending Defense 
Meteorological Satellite Program (DMSP) operations until 2025 by 
transitioning to a single string orbit and launching the remaining two 
DMSP satellites in an on-demand basis. In preparation for a follow-on 
to DMSP, we are validating the future capabilities required and 
conducting a study to identify the optimum approach for the follow-on 
program.
    Mr. Turner. 18) We have heard a lot about the need for resiliency 
of our space systems. How do we measure resiliency of an architecture? 
Do we have a way to model resiliency to evaluate our current systems, 
their strengths and weaknesses and determine what is sufficient? 
Compare current systems to future concepts? What are the most important 
steps the U.S. needs to take in order to create space systems that are 
resilient to threats?
    General Shelton. 18) Resiliency of space systems can be measured by 
an architecture's ability to resist an attack by avoiding damage or 
degradation, absorbing damage but maintaining structure and key 
functions and reconstituting to pre-event status.
    While the models for measuring resiliency for each space capability 
area differ, the Department of Defense does have a standard framework 
for assessing a functional architecture. This framework consists of 
identifying the anticipated threat, the minimum and desired levels of 
mission performance, the risk of not meeting these performance levels, 
the consequence to the mission of not meeting a given performance level 
and the duration over which a performance shortfall is tolerable.
    In the past, the threats to our spacecraft were not as concerning, 
so National Security Space programs built robustness into individual 
systems. Due to the current and increasing future threats, our concepts 
for providing resilient architectures include disaggregating 
capabilities on multiple satellites, non-traditional orbital regimes, 
hosting payloads on other satellites and integrating allied nation 
space and cyberspace capabilities.
    Mr. Turner. 19) Discuss the progress of the Space Protection 
Program. What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    General Shelton. 19) Since 2008, the Space Protection Program 
(SPP), a joint Air Force Space Command and National Reconnaissance 
Office Program, has energized the National Security Space community to 
implement strategies to improve resiliency and mission assurance. They 
delivered the Capabilities and Dependencies database, enabling United 
States Strategic Command (USSTRATCOM) to calculate the operational 
consequences of multiple space systems losses. In addition, several 
National Security Space programs have integrated protection 
capabilities into program baselines.
    This year, marks the culmination of several major efforts. SPP is 
completing testing of techniques that will allow USSTRATCOM to ensure 
communications capabilities in a highly contested environment. They are 
also working with United States Pacific Command and USSTRATCOM to 
incorporate new Tactics, Techniques, and Procedures for enhancing 
deployed systems survivability. Furthermore, this summer, SPP will 
complete an effort with multiple Services and agencies to demonstrate 
the effectiveness of various defeat capabilities and laying the 
groundwork for integrating those capabilities into operational 
architectures.
    The Department of Defense and Intelligence Community continue to 
work in close coordination to develop and improve mission assurance 
capabilities. Of note, SPP is integrating a set of Title 10 and Title 
50 response options involving the entire protection community to 
endorse performance requirements for the Space Situational Awareness 
architecture in a representative threat environment. The results will 
be delivered in approximately three months. These efforts, along with 
an associated effort to better define Indications and Warning support 
to space operations, indicate the coordination in the National Security 
Space community is strong and productive.
    Mr. Turner. 20) What efforts and long-term planning is the 
Department engaged in to ensure its spectrum continues to be 
safeguarded in the future?
    General Shelton. 20) The Air Force is engaged in multiple efforts, 
internationally and nationally, to ensure we continue to provide 
spectrum access capabilities to the Joint fight. At the same time, we 
recognize spectrum also fuels consumer and business wireless services 
and provides economic benefits to the Nation.
    Internationally, the Air Force was a key participant and 
contributor in the United States preparation for and attendance at the 
United Nation's International Telecommunications Union World Radio 
Communication Conferences (WRC). At WRC-12, significant gains were made 
regarding spectrum for unmanned aerial systems command and control, 
contributing toward congressionally directed efforts to integrate 
unmanned aircraft operations into the National Airspace System. The 
Conference also identified 300 additional megahertz of globally 
harmonized spectrum for radar use to support the development and 
operation of advanced synthetic aperture radars.
    Nationally, the Air Force is heavily involved in the presidentially 
directed and National Telecommunications and Information Administration 
led effort to identify 500 megahertz of additional spectrum for 
broadband wireless use. Our approach is straightforward: if we can 
prevent impacts to Air Force capabilities, we will not oppose 
repurposing of spectrum. Preventing impacts is dependent upon the 
availability of alternate spectrum, payment of our costs through the 
Spectrum Relocation Fund, and the time required making the transition.
    We are also working closely with the Office of the Secretary of 
Defense's Chief Information Officer on the development of a Department 
of Defense Long Term Spectrum Strategy to address how the Department 
will address the continuing pressures on our spectrum access.
    Mr. Turner. 21) What is the acquisition strategy for the Joint 
Space Operations Center Mission System (JMS) program? How will the 
strategy leverage existing investments in commercial and Government 
capabilities?
    General Shelton. 21) The JMS acquisition strategy leverages 
existing government off the shelf (GOTS) and commercial off the shelf 
(COTS) products to the maximum extent possible, producing a very cost-
effective procurement process. The JMS Program Office conducted market 
research to identify and assess the existing government and commercial 
capabilities that meet the Joint Requirements Oversight Council-
approved JMS requirements. No existing COTS solutions exist that will 
fully satisfy these requirements. The program office will procure 
appropriate COTS products that satisfy subsets of these requirements 
through fixed-price contracts and will use Multiple-award Indefinite 
Delivery Indefinite Quantity contracts to procure those capabilities 
needing additional development work to meet the remaining requirements.

    Mr. Turner. 22) What is the purpose and value of the Counter Space 
Technology List (CSTL) developed by the State Department and the 
Aerospace Corporation? Should the CSTL be integrated into the export 
control reform process?
    Mr. Schulte. 22) The Counterspace Sensitive Technology List (CSTL) 
is an ongoing research and analytical project, intended as a technical 
information aid to support export licensing and nonproliferation 
decisions. As such, it has proven to be an invaluable reference tool. 
It was one of the many references used by the members of the Category 
XV Technical Working Group to develop and justify the technical 
performance parameters recommendations in the proposed update to USML 
Category XV Spacecraft Systems and Associated Equipment published as 
Appendix 1 of the final 1248 Report. DOD, through the Defense 
Technology Security Administration (DTSA), and other departments and 
agencies are working with the State Department to ensure the 
completeness of the CSTL.
    Mr. Turner. 23) What is the right balance of organic space 
capability and commercially leased or hosted capability? How much of 
our space capability is currently being provided by commercial 
providers? How can we increase the opportunities for hosted payloads to 
save costs and bring capability online more quickly?
    Mr. Schulte. 23) The Counterspace Sensitive Technology List (CSTL) 
is an ongoing research and analytical project, intended as a technical 
information aid to support export licensing and nonproliferation 
decisions. As such, it has proven to be an invaluable reference tool. 
It was one of the many references used by the members of the Category 
XV Technical Working Group to develop and justify the technical 
performance parameters recommendations in the proposed update to USML 
Category XV Spacecraft Systems and Associated Equipment published as 
Appendix 1 of the final 1248 Report. DOD, through the Defense 
Technology Security Administration (DTSA), and other departments and 
agencies are working with the State Department to ensure the 
completeness of the CSTL.
    Mr. Turner. 24) We have heard a lot about the need for resiliency 
of our space systems. How do we measure resiliency of an architecture? 
Do we have a way to model resiliency to evaluate our current systems, 
their strengths and weaknesses and determine what is sufficient? 
Compare current systems to future concepts? What are the most important 
steps the U.S. needs to take in order to create space systems that are 
resilient to threats?
    Mr. Schulte. 24) Resilience is the ability of an architecture to 
support the functions necessary for mission success in spite of hostile 
action or adverse conditions. An architecture is ``more resilient'' if 
it can provide these functions with higher probability, shorter periods 
of reduced capability, and across a wider range of scenarios, 
conditions, and threats. Resilience may leverage cross-domain or 
alternative government, commercial, or international capabilities.
    This definition and an associated methodology were developed by the 
Department and reviewed by the Defense Space Council. The basic 
evaluation methodology relies on system-of-systems fault analysis 
against different types and levels of threats. This is then 
supplemented with performance satisfaction analysis to determine the 
degraded level of capability against any adverse circumstance. The on-
going Resilient Basis for SATCOM (RBS) Study and Joint Overhead 
Persistent Infra-Red Space Trade Study (JOIST) are the first 
architectural-level studies to assess resilience.
    As we look to the future, the most important steps we can take to 
enhance resilience are to adopt a payload-centric acquisition approach, 
coupled with greater international collaboration and smaller, simpler, 
more affordable, incremental, disaggregated mission satellites and 
hosted payloads. This more diverse, distributed, complex targeting 
approach denies adversaries the benefit of attack and imposes an 
unacceptable cost and complexity on their attack calculus.
    Mr. Turner. 25) Discuss the progress of the Space Protection 
Program. What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Mr. Schulte. 25) The Space Protection Program (SPP) has made 
important recommendations on how to reduce certain vulnerabilities in 
key space systems/constellations and identified ways to maintain our 
strategic advantage. Since 2008, the SPP has provided threat 
assessments, expanding upon intelligence assessments to include 
engineering judgments, technical analysis of suspected threat systems, 
and concepts to mitigate certain threats. In addition, the SPP 
supported development of the National Security Space Strategy, the 
Space Protection Strategy (SPS), which identifies protection 
priorities, and other key efforts in the department.
    We remain focused on multiple mission priorities, including efforts 
to enhance the resilience of our Missile Warning, ISR, and 
Communications architectures. DOD worked collaboratively with the 
Intelligence Community (IC) to establish the SPP, and we continue to 
work with the Director of National Intelligence (DNI) to assess the 
scope, functions, organization, and resources of the SPP, with a view 
towards building an enduring organization for resilience and mission 
assurance, increasing its effectiveness across the U.S. space 
enterprise, and integrating a closer working relationship among DOD, 
the IC, and civil agencies.
    Mr. Turner. 26) What efforts and long-term planning is the 
Department engaged in to ensure its spectrum continues to be 
safeguarded in the future?
    Mr. Schulte. 26) The use of the electromagnetic spectrum continues 
to be a critical enabler of our warfighting capabilities. We are 
sensitive to the competing spectrum demands resulting from the 
Department's increasing reliance on spectrum-dependent technologies and 
the rapid modernization of commercial mobile devices on a national and 
international scale. Recognizing that the demand for spectrum will 
continue to increase, the Department has long-term initiatives aimed at 
using and managing our spectrum more efficiently, identifying and 
investing in spectrally efficient technologies that afford us combat 
advantages, and advancing the interoperability of spectrum use and 
management with our coalition partners, and with Federal, State, and 
commercial entities.

    Mr. Turner. 27) The GAO found that satellites, ground control 
systems, and user terminals in most of DOD's major space system 
acquisitions were not optimally aligned, leading to underutilized 
satellites and limited capability provided to the warfighter--in some 
cases for periods measured in years. What is DOD doing to address the 
synchronization problems, particularly with GPS M-Code user terminals, 
AEHF Family of Beyond the Line of Sight Terminals, SBIRS starring 
sensor, and Navy MUOS JTRS terminals? Has OSD or the Air Force measured 
the cost in terms of delay or inefficiencies? What is the plan to close 
these gaps and more efficiently plan to fully utilize the resources 
available?
    Mr. Klinger. 27) Synchronization of schedules between space and 
ground components is recognized as an issue that limits some users from 
fully utilizing on-orbit capabilities. Launch schedules are such that 
the space components are required to maintain current capabilities 
while also affording enhanced capabilities requiring expanded ground 
processing or alternative user equipment in some cases. The Department 
is currently assessing ways to more efficiently bring ground component 
utility to more optimal levels. The following address the specific 
systems identified.
    The Air Force is focused on delivering new Positioning, Navigation 
and Timing (PNT) capabilities as quickly and cost effectively as 
possible. Providing a new PNT capability, such as military-code (M-
code), to warfighters requires populating the GPS constellation with 
modernized satellites (GPS IIR-M, IIF & III), fielding a control 
segment capable of providing C2 of new capabilities (OCX), as well as 
providing DOD GPS users with an industrial base to acquire M-code 
capable GPS receiver technology (MGUE). By FY18, the GPS constellation 
will be populated with the 24th M-code satellite, OCX will have 
transitioned to operations and sufficient development and operational 
testing and evaluation will have been accomplished to support a Full 
Rate Production decision for fielding MGUE.
    The Department has struggled to deliver the FAB-T program and 
synchronize with the AEHF satellite to take advantage of the new 
capabilities. The first AEHF satellite achieved orbit last year and is 
completing operational check out. We are in the process of 
restructuring the FAB-T program to reduce continued cost and schedule 
risk and now expect to deliver the first FAB-T in FY15. The restructure 
includes putting an alternate source for the highest priority 
capabilities, especially those on command and control platforms, on 
contract in 2012 to address development schedule risk. The restructure 
also includes conversion of the current development contract to a fixed 
price contract for the development, and fixed price options for 
production.
    Other AEHF terminals, the Navy Multiband Terminal (NMT), Air Force 
Minuteman MEECN Program Upgrade (MMPU) and Army Secure Mobile Anti-jam 
Reliable Tactical Terminal (SMART-T), are being fielded now, and will 
be able to utilize the full AEHF capability as soon as it becomes 
available for operational use. Since AEHF and all existing EHF 
terminals are also compatible with the legacy Milstar waveform, the 
AEHF satellite resources will be utilized when available. The 
operational cost is some users having to delay the migration to higher 
data rates and use of specific capabilities requiring the higher rates.
    The space component of SBIRS GEO-1 is ahead of the ground in the 
use of both scanning and staring sensors. Scanners represent the legacy 
detection schema and retain a place in future on-orbit architectures. 
Staring sensors are a more robust capability for which the current 
ground processing is being expanded and will be fully implemented by 
2018. During the interim period the scanner data continue to be of use 
as a result of data processing efforts within the USAF.
    Regarding MUOS, in July 2011 the USD(AT&L) directed a Red Team be 
established to determine the viability and probability of success of 
fielding the MUOS terminal/waveform capability. A goal of the Red Team 
was to assess the synchronization of the MUOS satellite and the JTRS 
ground terminal. The Red Team presented results of the assessment in 
November 2011 and USD(AT&L) directed they be implemented. A directive 
specifying timelines to accomplish Red Team tasks as well as 
determining service integration responsibilities is currently being 
reviewed by USD(AT&L).
    Mr. Turner. 28) The Operationally Responsive Space office is 
proposed for termination in the fiscal year 13 budget. Please explain 
why this program is being cancelled, what plans the Air Force has to 
sustain the ORS mission and how this will provide more responsive and 
timely space capabilities to the warfighter?
    Mr. Klinger. 28) With the successes of the Operationally Responsive 
Space (ORS) programs, the Department decided to incorporate the concept 
of operationally responsive space into the Air Force Space & Missile 
Systems Center (SMC) to increase resiliency, survivability and 
flexibility across all DOD space programs.
    Transition efforts are underway to fully integrate responsive space 
principles into space architectures and Space Modernization Initiatives 
to:

    <bullet>  Develop enablers to ensure resilience, survivability and 
flexibility
    <bullet>  Explore space mission augmentation options
    <bullet>  Incorporate responsiveness into Research and Development 
(R&D) efforts across other platforms
    <bullet>  Integrate lessons learned from ORS accomplishments.

    By integrating responsive space into the mission area platforms in 
both R&D and acquisition practice, the Department will continue to 
provide responsive and timely space capabilities to the warfighter.
    Additionally, the Joint Staff has an extremely responsive and 
proven Joint Urgent Operational Needs (JUON) and newer Joint Emergent 
Operational Needs (JEON) process which will continue to provide 
responsive capabilities to Combatant Commander urgent needs.
    Mr. Turner. 29) The Space Test Program has been a national 
capability relied on by laboratories and universities since 1965. Many 
critical space-based programs, such as GPS, have their origins in 
technology that was launched on STP missions. Please explain why the 
Department is requesting to cancel this critical program that provides 
the seed corn for future capabilities. Is there any other R&D 
organization that performs the mission of STP, integrating and 
launching payloads across the Department and coordinating experiments 
to fly aboard the International Space Station? Further, did the Air 
Force coordinate with the affected Government laboratories and 
organizations so they could properly plan for this in the FY 13 budget 
request?
    Mr. Klinger. 29) Current fiscal constraints have resulted in the 
need to terminate STP in order to reallocate funding to higher 
priorities. While no other organization currently provides DOD-wide 
space access services or coordinates DOD experimentation aboard the 
International Space Station, spaceflight opportunities, both dedicated 
and rideshare, will still be available to the DOD science and 
technology community. Additionally, the DOD Joint Capability Technology 
Demonstration Program has several space capabilities and launch 
demonstrations planned.
    DOD organizations will continue to invest in research and 
development of advanced space technologies, and will develop and fund 
their own space-access means and capabilities. While the desired 
coordination with affected government laboratories and organizations 
did not occur due to time constraints during the final balancing of the 
President's Budget. The FY13 budget request includes funds for STP to 
operate throughout FY13 and the Department is coordinating an approach 
to provide future space access for DOD experiments.
    Mr. Turner. 30) To account for the Space Test Program termination, 
are the budgets for the laboratories across the Department being 
increased, in the FY13 PB and the FYDP, to account for the expanded 
mission of launching their payloads? If so, by how much? If not, how 
will this ongoing requirement be met in the future?
    Mr. Klinger. 30) Budgets for DOD laboratories were set 
independently from the STP termination decision. The Air Force Research 
Laboratories, Naval Research Laboratories, Army Space and Missile 
Defense Command, Defense Advance Research Project Agency, National 
Reconnaissance Office, and other DOD organizations will continue to 
make significant investments in space related research, including the 
space access costs.
    Mr. Turner. 31) The Secretary of Defense in the Annual Industrial 
Capabilities Report to Congress, dated September 2011, highlighted 
DOD's concern for the U.S. Liquid Rocket Propulsion Industrial Base 
(LRPIB), and specifically the Air Force Evolved Expendable Launch 
Vehicle (EELV) program's reliance on Russian engines. What are your 
perspectives on the need to invest in domestic liquid rocket engines 
for use on our critical National Security Space launch missions? What 
must be done and when in order to preserve the critical U.S. liquid 
rocket engine industrial base and the unique science and engineering 
capability that supports this industrial base?
    Mr. Klinger. 31) There are several reasons why it is urgent that we 
readdress our current investment in liquid rocket engines. First, the 
upper stage engine used on the Delta IV is no longer in production. We 
have a stockpile that will last several years, but we must restart the 
line or replace this engine. Atlas V uses a similar upper stage that, 
although still in production, is also scheduled to stop production. The 
Department needs to collaborate with the United Launch Alliance to 
determine the way-ahead. Resolution of continued upper stage liquid 
rocket engine availability is most urgent.
    Second, as you noted, we depend on the Russians to provide RD-180 
boost engines for the first-stage of the Atlas V; this approach has 
obvious concerns. Investment in development of a domestically-produced, 
hydrocarbon-fueled, staged-combustion boost engine with similar or 
better performance than the RD-180 would eliminate this dependency and 
give a much-needed injection of capital to our liquid rocket engine 
industrial base. We mitigate this dependency today with a stockpile of 
RD-180 engines to allow us sufficient time to react, if needed. The DOD 
and NASA are collaborating on a study of liquid rocket engine 
alternatives for both first- and upper-stage that was commissioned by 
the Deputy Secretary of Defense. The DOD will use the results of this 
study to inform budget requests that will be sent to the Congress for 
FY 2014. NASA intends to leverage the results of this study in their 
own roadmap, which will be expressed in the National Rocket Propulsion 
Strategy.
    Mr. Turner. 32) Should the launch schedule slip, as has 
historically been the case, how will the excess inventory the Air Force 
builds up effect competition from New Entrants? How much generally are 
the storage costs per booster, and who pays those costs?
    Mr. Klinger. 32) Our analysis of satellite readiness for launch 
indicates that the rate of 6-10 cores per year over 3-5 years that is 
anticipated under the Air Force EELV acquisition strategy is 
insufficient to meet the expected demand. Although we have experienced 
launch delays in the past, circumstances that led to lower than 
expected launch rates no longer exist. We are entering a period during 
which several National Security Space programs that involve 
constellations of satellites are now in full-scale production, so we 
anticipate a full launch manifest for the foreseeable future.
    The Department's contractor does not produce or store excess launch 
vehicles. They acquire some long-lead materials and stockpile them at 
their expense, but the factory adjusts production to match confirmed 
deliveries to the launch site as the satellites arrive for integration 
and launch preparation. If an already-ordered launch were indefinitely 
delayed, the factory would adjust production to match the revised 
manifest and any cores already in production for the delayed launch 
would be reassigned to the next suitable mission.
    Mr. Turner. 33) What is the status of the new acquisition strategy 
for the Evolved Expendable Launch Vehicle, and what is the specific 
information that will be gathered to inform the final decision the 
block buy contract? What are the expected savings from the new 
strategy?
    Mr. Klinger. 33) The EELV acquisition strategy was approved by the 
Air Force Acquisition Executive on November 24, 2011, and the Air Force 
released a request for proposal March 23, 2012 requesting cost 
proposals that cover a range of launch rates and durations. From that 
data and our own independent analysis, the Department will award the 
first block-buy contract at the rate, duration, and with termination 
conditions that, together, offer the most advantageous terms to the 
Government. Actual savings will not be known until we receive and 
assess the proposal later this summer.
    Mr. Turner. 34) When do you assess that a new entrant will meet the 
established criteria for national security space EELV-class launches?
    Mr. Klinger. 34) Only one potential new entrant, the Space 
Exploration Technologies Corporation (SpaceX), has stated an intention 
to qualify for future National Security Space (NSS) launch missions, 
and based on their current DOD- and NASA-funded launches, combined with 
their commercial launches and assuming the success of these missions, 
we expect them to achieve certification to compete for future NSS 
missions by 2017. SpaceX has said they will be certified by 2014. Their 
estimate assumes no anomalies, which would be a first for a new launch 
vehicle (Falcon 9D), and this forecast does not take into consideration 
additional mission assurance measures that SpaceX will be required to 
implement throughout their supply and construction chain before they 
can be awarded an EELV-class launch mission.
    Mr. Turner. 35) GAO recently released its annual report on 
duplication, overlap, and fragmentation and reported that ``Space 
launch acquisition processes for NASA and DOD are not formally 
coordinated, duplicate one another, and may not fully leverage the 
Government's investment because the Government is not acting as a 
single buyer.'' Please identify cost savings opportunities and identify 
what is being done to reduce duplication and leverage investments?
    Mr. Klinger. 35) As the DOD's lead for National Security Space 
(NSS) launches, the Air Force manages the NSS launch manifest and 
launch service acquisitions in coordination with NASA to leverage our 
combined buying power and acquire the best contract terms for the U. S. 
Government (USG). The DOD believes the USG launch customer community 
(DOD, NRO, and NASA) should collectively negotiate the number of launch 
vehicles and services based on the total USG demand to achieve an 
economy of scale. The DOD and NRO, for example, have an existing 
memorandum of understanding and collectively procure launch services 
with DOD, specifically Air Force Space Command, acting as the lead 
agent. Current policy encourages agencies to use another agency's 
contract vehicle if the scope and terms of the providing agency's 
contract meet the supported agency's needs. However, NASA awarded the 
Launch Services II contract to meet their specific space launch 
requirements, which are not the same as the NSS requirements.
    Mr. Turner. 36) There are potential program areas where the DOD and 
NASA may have common or similar requirements for evolving space launch 
capabilities. These include high-thrust liquid oxygen--kerosene rocket 
propulsion systems/boosters for use on next-generation EELV and NASA's 
Space Launch System (SLS) Advanced Booster. How have the DOD and NASA 
collaborated toward establishing common requirements whereby a common 
liquid booster could be established for use on both programs? Are there 
active efforts between the DOD and NASA to coordinate Research and 
Development roadmaps so that maximum space launch benefits can be 
obtained? If yes, please describe some examples of these coordinated 
actions and ongoing collaborations.
    Mr. Klinger. 36) The Air Force is working with NASA to explore the 
potential of a partnership to develop a new upper-stage, liquid-fueled 
engine for use in both the Air Force's Evolved Expendable Launch 
Vehicle (EELV) and NASA's Space Launch System (SLS). Under the 
Integrated High Payoff Rocket Propulsion Technology program (or 
IHPRPT), an Air Force-NASA project, a suite of physics-based modeling 
and simulation tools used to develop upper-stage engines has been 
deployed for use by the DOD and NASA. IHPRPT also develops components 
for a staged-combustion, hydrocarbon-fueled main booster. The Air Force 
Research Laboratory at Edwards Air Force Base is scheduled to conduct a 
demonstration firing of a sub-scale prototype of an engine built with 
these components in FY 2020.
    Building on these efforts, the DOD and NASA are collaborating on a 
study of liquid rocket engine alternatives for both first- and upper-
stage that was commissioned by the Deputy Secretary of Defense. The DOD 
will use the results of this study to inform budget requests that will 
be sent to the Congress for FY 2014. NASA intends to leverage the 
results of this study in their own roadmap, which will be expressed in 
the National Rocket Propulsion Strategy that the DOD is co-developing 
with NASA. The National Rocket Propulsion Strategy was directed in 
Section 1095 of the FY 2012 National Defense Authorization Act.
    Mr. Turner. 37) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the new acquisition strategy protect against overly high launch 
vehicle prices compared with mission assurance changes/efficiencies 
resulting from these assessments? Further please outline how mission 
assurance for national security space missions differs from commercial 
space missions.
    Mr. Klinger. 37) Mission assurance activities consume approximately 
5% of the EELV program budget. Each launch is unique and only those 
activities that contribute to the reliability of each launch are 
funded. The Air Force reviews mission assurance activities annually to 
prune away any that do not materially contribute to reducing the risk 
associated with all launch missions.
    The new EELV acquisition strategy seeks to control costs by 
achieving an economic order quantity, not through elimination of 
mission assurance measures.
    Commercial space missions are profit driven endeavors. As such, 
they can buy down their financial risk through insurance or negotiate 
it to the developer by purchasing only assets on orbit. National 
Security Space (NSS) missions are not profit driven, but rather seek to 
provide unique sensor, navigation, and communications capabilities to 
meet the needs of warfighters in combat or intelligence needs of 
national policy makers. In a few cases, we have purchased services from 
commercial vendors to fill gaps in NSS capabilities, namely; 
communications and commercial imagery. But, only in those unique 
instances does an NSS mission begin to resemble a commercial model. For 
most NSS missions, there is no replacement option for the unique 
capabilities provided by the payload, so we impose higher mission 
assurance standards to reduce the risk of launch for these missions. 
The savings that might be realized from reducing mission assurance 
activities is insignificant compared to the opportunity cost of losing 
a critical NSS payload.
    Mr. Turner. 38) The defense and intelligence user communities 
conducted a study in 2010 to jointly identify near-term ground 
investment opportunities that can lead to a more unified and 
interoperable Overhead Persistent Infrared ground architecture. What 
improvements are being made to capitalize on opportunities for data 
sharing and fusion? Can you identify any areas of improvement for the 
community to work more collectively on OPIR exploitation?
    Mr. Klinger. 38)--What improvements are being made to capitalize on 
opportunities for data sharing and fusion? Answer: The on-going 
acquisition of JOG solutions provides a premier example of Intelligence 
Community (IC) and Department of Defense (DOD) cooperation in 
transforming OPIR stovepipes into an interoperable OPIR enterprise for 
the National System for Geospatial Intelligence (NSG). JOG solutions 
will deliver several critical capabilities to take full advantage of 
the IC and DOD's OPIR systems. Most all of these solutions provide 
improved data product sharing and fusion.
    Commitment and support to JOG at all levels continues to be 
outstanding. JOG acquisition realized a major milestone when the senior 
leaders of the IC and DOD agencies partnering in JOG committed their 
full support. This strong collaboration led to a JOG Memorandum of 
Agreement, signed by the Directors, National Geospatial-Intelligence 
Agency (NGA) and Missile Defense Agency (MDA), and the Secretary of the 
Air Force on 30 September 2011. The JOG team received Phase-B-
equivalent approval from the Joint (Under Secretary of Defense for 
Acquisition, Technology, and Logistics and Assistant Director of 
National Intelligence for Acquisition, Technology, and Facilities) 
Intelligence Acquisition Board on 5 October 2011.
    Almost all the JOG solutions enable data sharing and fusion. Of the 
23, seven materiel solutions are receiving initial funding in FY12: 
Mission Scheduling, OPIR Enterprise Mission Management (OEMM), Real-
time Transfer Service (RTS), Space Based Infrared System (SBIRS) 
Wideband Data Distribution, Data Standards Development, Fast-Frame 
Processing for Battlespace Awareness/Space Situational Awareness 
Reporting (BA/SSA), and Joint Operations for BA/SSA. All seven enable 
data sharing and fusion.
    JOG solutions are grouped into three packages with deliveries 
scheduled for FY14, FY17, and FY20. Several solutions provide initial 
capabilities in early deliveries, with full capabilities in later 
deliveries. In addition to the seven solutions previously mentioned, 
the following capabilities also support data sharing and fusion: OPIR 
Real-time Message Formats, Real-time Web Reporting, and Full Frame 
Processing for Missile Defense, Joint OPIR Data Archive, Cobra Brass-F 
and SBIRS Geolocation Accuracy Improvements, and Enhanced Scene-based 
Products.

    --Can you identify any areas of improvement for the community to 
work more collectively on OPIR exploitation? Answer: The IC and DOD 
communities' team on establishing joint OPIR policy through the 
recurring OPIR Working Group. Operationally, the two collaborate though 
the Joint OPIR Planning Cell. We look forward to USSTRATCOM formally 
approving the implementation of the Joint OPIR Priority Framework, 
which will provide unified priority guidance for DOD and IC tasking of 
OPIR satellites. Additionally, USSTRATCOM and NGA continue to 
collaborate on defining OPIR support to the BA capability, which will 
further support the acquisition of JOG solutions.

    Summary: JOG represents a major step forward for OPIR development 
and integration into the NSG. Solutions will provide users with new, 
high-value capabilities and support the delivery of an interoperable 
OPIR ground architecture for the joint IC and DOD community. NGA, Air 
Force, and MDA collaboration to acquire these solutions is outstanding; 
the team is off to a good start delivering OPIR capabilities that 
better serve all our OPIR users.
    Mr. Turner. 39) Can you discuss any Department efforts to establish 
a longer-term plan for MILSATCOM? What is the projected demand in 
narrowband, wideband, and protected communications and how does the 
Department plan to meet it? What is the Department doing to ensure it 
is procuring Ku-band commercial satellite communications in the most 
efficient manner?
    Mr. Klinger. 39) Question 1: Can you discuss any Department efforts 
to establish a longer-term plan for MILSATCOM?
    Answer: The Department of Defense Fifteen-Year Defense Space 
Systems Investment Strategy for Fiscal Years 2012-2026, August 16, 2011 
is the Department's long-range space systems investment strategy. It is 
consistent with the FY 2012 President's Budget and reflects 2010 
Quadrennial Defense Review, the 2010 National Space Policy and the 2011 
National Security Space Strategy. The resilient and diversified 
approach to SATCOM capability acquisition offers operational 
flexibility in providing near-term surge needs as well as ensuring 
long-term availability of military communications in diverse wartime 
scenarios. Through ongoing studies and AoAs the Department is assessing 
the MILSATCOM architecture and outlining a strategy for development/
procurement of long-term MILSATCOM.

    Question 2: What is the projected demand in narrowband, wideband, 
and protected communications and how does the Department plan to meet 
it?
    Answer: The Department is currently assessing the projected demand 
for space communications assets. Resource Management Decision 700, 25 
January 2011, tasked the Executive Agent for Space, in coordination 
with the Under Secretary of Defense (USD) for Acquisition, Technology 
and Logistics, USD (Intelligence), Assistant Secretary of Defense 
(NII), Joint Staff, United States Strategic Command, Director Cost 
Assessment and Program Evaluation, Director National Reconnaissance 
Office and the Military Services to conduct a study to assess the 
future of satellite communications in context of the National Security 
Space Strategy. This study encompasses the nuclear, contested and 
benign operating environments. This study's end-state objective is:

    <bullet>  A comprehensive cost/benefit (warfighting effectiveness 
metric) analysis across the span of alternatives associated with 
mitigating the gaps identified in the Joint Space Communications Layer 
Initial Capability Document.
    <bullet>  Identify preferred alternatives for near and long term 
needs.
    <bullet>  Fully consider cost, schedule and performance trades.
    <bullet>  Include a roadmap for transition from near to long-term 
solutions.

    Question 3: What is the Department doing to ensure it is procuring 
Ku-band commercial satellite communications in the most efficient 
manner?
    Answer: The Future Commercial Satellite Services Acquisition (FCSA) 
strategy (that includes all Ku band commercial satellite 
communications) has increased competition sevenfold, opening 
competition to more than 20 satellite vendors. We have already seen 
that this additional competition is providing better pricing. The 
transition for fixed satellite services (FSS) began last year, and 
mobile subscription services (MSS) transition begins this year. The 
government is in a better position today than yesterday in competing 
COMSATCOM requirements.
    Mr. Turner. 40) What is the right balance of organic space 
capability and commercially leased or hosted capability? How much of 
our space capability is currently being provided by commercial 
providers? How can we increase the opportunities for hosted payloads to 
save costs and bring capability online more quickly?
    Mr. Klinger. 40) As a consumer in the commercial satellite industry 
marketplace, DOD is engaged and proactive in formulating commercial 
satellite communication (COMSATCOM) investment and acquisition 
strategies to satisfy military operational requirements. Commercial 
leased or hosted capabilities have been an integral part of our SATCOM 
capability for years; leased COMSATCOM provides the predominance of 
CENTCOM communications, and is anticipated to continue while U.S. 
Forces remain active in the CENTCOM AOR.
    In FY12, the Department directed the replacement of satellite 
communications leases purchased with Overseas Contingency Operations 
funds with a multiple option-year leases through the Defense 
Information Systems Agency's Future Commercial Satellite Communications 
Services Acquisition (FCSA). FCSA Service Areas include: Custom end to 
end SATCOM solutions (CS2), ``Plug-in'' subscription services ($/month, 
$/minute, $/MB), and higher transponder capacity.
    The balance between COMSATCOM and MILSATCOM is based on the 
uniqueness of certain military requirements. Military requirements span 
a broad range, some of which are typical of commercial uses and some 
are atypical (e.g., jamming protection, anti scintillation, nuclear 
survivability, communications on the move (COTM)). For this reason, DOD 
space system acquisitions meet military requirements, while commercial 
space system acquisitions meet market demands, although some future 
commercial offerings may be beneficial to the wideband military market 
(e.g., commercial Ka band for support to disadvantaged users). 
International Traffic in Arms Regulations (ITAR) risks and proper DOD 
approvals must be considered before implementing any of these atypical, 
military-specific requirements on COMSATCOM.
    Hosting DOD payloads on commercial satellites offer great potential 
to augment, diversify, reconstitute DOD capabilities, more frequently, 
and create resilience in an affordable way. However, there are several 
challenges we must overcome:

    <bullet>  In order to maximize opportunities in hosted payloads, a 
common interface standard must be instituted on all commercial 
satellites so that: (1) the DOD could rapidly host the payload on 
commercial launches to orbit locations of interest to the DOD, and (2) 
the DOD could compete the hosting of the payloads across multiple 
satellite operators.
    <bullet>  Commercial satellite orbit locations would require 
clearances to operate at frequencies assigned for military/government 
operations. In addition, ITAR issues may limit launch opportunities to 
U.S. owned or ``friendly'' foreign owned companies.
    <bullet>  Hosted payloads, by their nature, are tenants on a 
commercial satellite. The DOD would need assurances that the hosted 
payload would not be shut down if there were issues such that operating 
the hosted payload conflicted with the other revenue producing payloads 
on the satellite. Commercial Remote Sensing is provided through firm-
fixed price Service Level Agreements. The balance between government 
and commercial systems is, once again, derived from the requirements 
which are either uniquely time-sensitive, military/intelligence or 
global, unclassified, shareable and delivered on-demand. Several 
challenges highlight the need to reevaluate the balance between 
government and commercial remote sensing:

        <bullet>  Foreign industry's momentum in providing increasingly 
        greater electro-optical resolution
        <bullet>  Foreign government-subsidized synthetic aperture 
        radar and multi-spectral capabilities which do not exist in the 
        U.S. commercial space industry
        <bullet>  Increasing demand for full-motion video, as a result 
        of the proliferation of unmanned aerial systems.

    The future opportunities for commercial remote sensing will depend 
on the U.S. data providers' ability to remain viable in the market 
place with an increasing number of competitors, not only from emerging 
space-faring nations, but with expanding capabilities of our Allies.
    Mr. Turner. 41) The Department requested only $2M in FY13 for 
``Weather Satellite Follow-On'' efforts, and projected no money after 
that in the Five Year Defense Plan. While we recognize that the 
Department is relying on the Defense Meteorological Satellite Program 
to meet its near-term needs, what is the longer term plan to meet this 
critical mission area?
    Mr. Klinger. 41) The Department is moving forward with an analysis 
of current and potential future capability gaps created in the wake of 
the recent Defense Weather Satellite System termination and the 
upcoming projected end-of-life for the DMSP. A Defense Space Council 
(DSC) study will be accomplished in order to inform a Material 
Development Decision in late July 2012 and provide input to frame an 
Analysis of Alternatives (AoA). The DSC study is also expected to be 
the basis for the Department's request for funding in FY 2014 to 
support continued sensor development and risk reduction activities 
initiated with the $125M Congress provided in the FY 2012 NDAA. The AoA 
will commence late in 4QFY12 and will inform budget submissions for FY 
2015 and beyond.
    Mr. Turner. 42) We have heard a lot about the need for resiliency 
of our space systems. How do we measure resiliency of an architecture? 
Do we have a way to model resiliency to evaluate our current systems, 
their strengths and weaknesses and determine what is sufficient? 
Compare current systems to future concepts? What are the most important 
steps the U.S. needs to take in order to create space systems that are 
resilient to threats?
    Mr. Klinger. 42) The Department has defined space resilience. 
``Resilience is the ability of an architecture to support the functions 
necessary for mission success in spite of hostile action or adverse 
conditions. An architecture is `more resilient' if it can provide these 
functions with higher probability, shorter periods of reduced 
capability, and across a wider range of scenarios, conditions, and 
threats. Resilience may leverage cross-domain or alternative 
government, commercial, or international capabilities.''
    The Department has initiated integrating the resilience definition 
and we're in the early stages of applying an evaluation methodology 
into space architecture development for overhead persistent infrared, 
wideband and protected communications, and space control. Promulgating 
the resilience definition and methodology throughout the Department's 
processes will enable a common framework to make important trades 
between performance, affordability, and resilience.
    The most important steps that the Department is undertaking to move 
towards space architectures innately more resilient to emerging threats 
are: 1) continuing efforts to enhance the resiliency and effectiveness 
of critical space-based capabilities, 2) continuing to work with 
domestic and international allies and partners, 3) invest in advanced 
capabilities to defend operational capability and improve resiliency in 
space.
    Mr. Turner. 43) Discuss the progress of the Space Protection 
Program. What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Mr. Klinger. 43) The Space Protection Program (SPP) has conducted 
several important analyses addressing certain vulnerabilities across 
space systems and constellations since its inception in 2008. The 
program has conducted engineering assessments and technical analysis of 
suspected threat systems to develop and recommend concepts to mitigate 
those threats. In addition, the SPP has supported analysis of several 
Air Force programs, making recommendations on technology transition and 
operational development to meet the threat baseline.
    We remain focused on understanding the operating environment and 
response trade space to evolve vital space missions into a more 
resilient and integrated architecture. OSD is working with the DNI to 
assess the scope, functions, organization, and resources of the SPP to 
ensure we have an enduring organization for resilience, survivability, 
and space service assurance; and increase effectiveness across the U.S. 
space enterprise with close working relationships among DOD and IC.
    Mr. Turner. 44) What efforts and long-term planning is the 
Department engaged in to ensure its spectrum continues to be 
safeguarded in the future?
    Mr. Klinger. 44) The use of the electromagnetic spectrum continues 
to be a critical enabler of our warfighting capabilities. We are 
sensitive to the competing spectrum demands resulting from the 
Department's increasing reliance on spectrum-dependent technologies and 
the rapid modernization of commercial mobile devices on a national and 
international scale. Recognizing that the demand for spectrum will 
continue to increase, the Department has long-term initiatives aimed at 
using and managing our spectrum more efficiently, identifying and 
investing in spectrally efficient technologies that afford us combat 
advantages, and advancing the interoperability of spectrum use and 
management with our coalition partners, and with Federal, State, and 
commercial entities.
    Mr. Turner. 45) Is there a requirement for commercial imagery, and 
if so, what is it? How does the Department quantify the amount of 
commercial satellite imagery needed to support the requirements of the 
warfighter? How does the Department plan to address these needs? What 
is the longer-term plan?
    Mr. Klinger. 45) Yes there is a requirement for Commercial Imagery 
(CI). From the time commercial imagery satellite capabilities first 
became available, these capabilities have provided a valuable 
complementary source of imagery products to those obtained through 
National Technical Means (NTM). The current requirement includes 
products for imagery analysis that supplements information from NTM, as 
well as for Foundation Based Operations and Safety of Navigation (FBO/
SoN) data. FBO/SoN products include data to develop and update 
aeronautical and maritime charts, maps, and other foundation data used 
both in intelligence reporting and operational planning documents. CI 
systems can fulfill the bulk of the FBO/SoN requirements, while high 
resolution NTM fulfill the bulk of detailed imagery for analysis 
supporting intelligence, targeting, and decision making by senior 
leaders. In reality, both CI and NTM can, and are, used to support the 
two mission areas to a limited extent depending on timeliness, mission 
and tasking priorities, and other operational constraints such as cloud 
cover. The overall demand for imagery continues to grow, and commercial 
imagery is an essential means to meet some of the demand. The 
commercial imagery contracts are negotiated to provide imagery volumes 
based on capacity of the commercial satellites and acceptable return on 
investment by the Department.
    The Department is currently refining its approach to addressing 
these needs by conducting a joint USD(I)-ODNI led Commercial Imagery 
Study that assesses satisfaction of the existing demand for Commercial 
Imagery. The Department will use the results from this analysis effort 
to ensure both DOD and ONDI are making the optimized, affordable 
investment to satisfy the warfighter needs to the greatest degree 
possible. The final report is due out in late April to OMB. 
Additionally, the Joint Staff J-8 is performing a consolidated ISR 
Study that includes an assessment of Commercial Imagery requirements 
which will determine to what degree military CI requirements are being 
met today, as well as those anticipated in the near term.
    The longer term plan is for the Department to continue to work 
closely with the DNI to ensure the USG can meet the needs of the 
warfighter through an optimum balance of investments in both NTM and 
CI. The CI investments in future years will be thoroughly analyzed 
against all other mission priorities within the Department and 
resourced appropriately.

    Mr. Turner. 46) What is the purpose and value of the Counter Space 
Technology List (CSTL) developed by the State Department and the 
Aerospace Corporation? Should the CSTL be integrated into the export 
control reform process?
    Ms. Sapp. 46) The National Reconnaissance Office (NRO) is not a key 
participant in developing the CSTL; respectfully defer this question to 
the State Department.
    Mr. Turner. 47) The Defense Space Council, established last year, 
was designed to provide strategic guidance, planning, and architecture 
assessment. From the perspective of the NRO, can you describe how the 
Defense Department and Intelligence Community are cooperating, 
conducting planning, and leveraging investments?
    Ms. Sapp. 47) The NRO continues to collaborate with the Department 
of Defense (DOD) and Intelligence Community (IC) in forums such as the 
Defense Space Council (DSC). One of the core functions of the DSC is to 
assess and guide requirements, plans, programs, and architectures 
within the DOD and to promote cooperation between Defense and 
Intelligence space sectors. This forum, and others such as the Joint 
Requirements Oversight Council, provides the IC and the DOD 
opportunities to synchronize activities of mutual interest. More 
specifically, there is considerable cooperation, planning, and 
leveraging of investments through the acquisition and annual budget 
processes. The DOD, the Director of National Intelligence and the 
functional managers for signals intelligence (National Security Agency) 
and geospatial intelligence (National Geospatial-Intelligence Agency) 
routinely work closely together to cooperate and conduct planning on 
those systems in acquisition, and proposed future systems to meet 
intelligence needs. In addition, during the annual budgeting process 
investment leveraging is performed through joint studies and also 
through jointly funded acquisitions where both the intelligence and 
defense communities benefit from dual investments in key capabilities.
    Mr. Turner. 48) When do you assess that a new entrant will meet the 
established criteria for national security space EELV-class launches?
    Ms. Sapp. 48) Based on continued interaction with National 
Aeronautics and Space Administration (NASA) and the Air Force, combined 
with our ongoing efforts with several new entrants, the NRO is 
encouraged by the development and looks forward to seeing new entrants 
compete for launches as early as Fiscal Year (FY) 2014. This progress 
is consistent with goals outlined in the new entrant strategy.
    Mr. Turner. 49) What is the NRO doing to determine the viability 
and readiness of new entrants performing launches for NRO missions?
    Ms. Sapp. 49) In the past year, the NRO completed mission 
integration and security related studies with two new entrant providers 
(SpaceX and Orbital Sciences Corp). In concert with the Air Force, the 
NRO is awarding follow-on efforts to one new entrant provider (SpaceX) 
for defining integration requirements for the NRO Launch-79 (NROL-79) 
mission. The NROL-79 launch vehicle is currently scheduled for a FY 
2017 launch date.
    In addition to these early integration studies, the NRO is also 
participating, with NASA and the Air Force, in new entrant technical 
design reviews to better understand the new entrant providers' 
processes and designs.
    Mr. Turner. 50) GAO recently released its annual report on 
duplication, overlap, and fragmentation and reported that ``Space 
launch acquisition processes for NASA and DOD are not formally 
coordinated, duplicate one another, and may not fully leverage the 
Government's investment because the Government is not acting as a 
single buyer.'' Please identify cost savings opportunities and identify 
what is being done to reduce duplication and leverage investments?
    Ms. Sapp. 50) The Air Force is the executive agent for launch and 
NRO respectfully defers to them to respond to this question.
    Mr. Turner. 51) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the new acquisition strategy protect against overly high launch 
vehicle prices compared with mission assurance changes/efficiencies 
resulting from these assessments? Further please outline how mission 
assurance for national security space missions differs from commercial 
space missions.
    Ms. Sapp. 51) This question is deferred to the DOD.
    Mr. Turner. 52) What is the right balance of organic space 
capability and commercially leased or hosted capability? How much of 
our space capability is currently being provided by commercial 
providers? How can we increase the opportunities for hosted payloads to 
save costs and bring capability online more quickly?
    Ms. Sapp. 52) This question is deferred to the DOD.
    Mr. Turner. 53) We have heard a lot about the need for resiliency 
of our space systems. How do we measure resiliency of an architecture? 
Do we have a way to model resiliency to evaluate our current systems, 
their strengths and weaknesses and determine what is sufficient? 
Compare current systems to future concepts? What are the most important 
steps the U.S. needs to take in order to create space systems that are 
resilient to threats?
    Ms. Sapp. 53) How do we measure resiliency of an architecture? 
Answer: (U//FOUO) Regarding NRO systems, resilience describes how the 
architecture responds to an unexpected disturbance (launch failure, 
counter space activities, mission disruption, etc.) So, resilience 
should provide the level of system adaptability to threat degradation 
and loss in terms of quickly NRO capabilities ``bounce back'' or 
recovers in collection capacity and how long it takes to do so--to 
include the time it takes the constellation to be re-optimized after a 
given loss or perturbation.
    Do we have a way to model resiliency to evaluate our current 
systems, their strengths and weaknesses and determine what is 
sufficient? Answer: (U//FOUO) The NRO is developing modeling techniques 
to predict and visualize system performance. Research is ongoing to 
determine the best combination and use of these techniques. Key guiding 
principles include: interoperability, to support optimizing the 
collective response to threats; resiliency metrics inherently tied to 
architecture performance; and linking predictive awareness and 
resiliency.
    Compare current systems to future concepts? Answer: (U//FOUO) The 
NRO is pursuing future architecture concepts that are both effective 
and resilient, while also consistent with cost constraints. Comparisons 
between specific current and future systems are classified, and can be 
discussed in a different forum.
    What are the most important steps the U.S. needs to take in order 
to create space systems that are resilient to threats? Answer: (U//
FOUO) Resiliency from an architecture perspective is by far the most 
creditable and cost effective approach to maintaining the flow of vital 
information from national systems. This is a holistic approach where 
future architectures are a dynamic resilient ``system'' capable of 
being reorganized to ``buyback'' mission capability under variable 
stressing conditions, thus preserving essential capability.
    Mr. Turner. 54) Discuss the progress of the Space Protection 
Program. What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Ms. Sapp. 54) Since 2008, the Space Protection Program (SPP), a 
joint NRO and Air Force Space Command Program, has energized the 
national security space community to implement strategies to improve 
resiliency and mission assurance for military and national security 
space architectures. They delivered the Capabilities and Dependencies 
database, enabling United States Strategic Command to calculate the 
operational consequence of multiple space system losses. In addition, 
several national security space programs have integrated protection 
capabilities into program baselines.
    The Intelligence Community and Department of Defense continue to 
work in close coordination to develop and improve mission assurance 
capabilities. Of note, SPP is integrating a set of Title 10 and Title 
50 response options involving the entire protection community to 
endorse performance requirements for the space situational awareness 
architecture in a threat environment. They will deliver these results 
to the Director of the NRO, and the Commander of Air Force Space 
Command in three months. These efforts, along with an associated effort 
to better define indications and warnings support to space operations, 
indicate the coordination is strong and productive.
    SPP will continue its efforts to better protect our space-enabled 
capabilities and to incorporate protection into the requirements 
processes and operational plans.
    Mr. Turner. 55) What efforts and long-term planning is the 
Department engaged in to ensure its spectrum continues to be 
safeguarded in the future?
    Ms. Sapp. 55) This question is deferred to the DOD.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. 56) Will sensors that can improve detection of a 
nuclear detonation be incorporated into the SIBRS satellite? Why/why 
not?
    <bullet>  What is the cost?
    <bullet>  When can we expect the report on this issue that is due 
to Congress?
    General Shelton. 56) The Department of Energy conducted a study to 
assess if more affordable United States Nuclear Detonation Detection 
System (USNDS) space and ground architectures are possible. Six options 
were analyzed, two of which involved hosting USNDS sensors on SBIRS, 
beginning with Geosynchronous Earth Orbit Satellite 7.
    The study out-brief and decision process is underway.
    Ms. Sanchez. 57) Could you give us your thoughts on the way forward 
for JMS and why this is an urgent need?
    <bullet>  Why is a developmental path that might be more expensive 
and take longer to develop being pursued when commercial-off-the-shelf 
capability may provide an earlier and cheaper solution? Are there any 
plans for testing commercial capability?
    General Shelton. 57) Our legacy Space Situational Awareness 
processing system, the Space Defense Operations Center (SPADOC), is far 
beyond its useful life expectancy. Its limited capacity impairs our 
ability to conduct daily operations and it is not able to incorporate 
our next-generation sensors. These factors make the near-term 
replacement of SPADOC critical.
    The JMS acquisition strategy leverages existing government off the 
shelf (GOTS) and commercial off the shelf (COTS) products to the 
maximum extent possible, producing a very cost-effective procurement 
process. The JMS Program Office conducted market research to identify 
and assess the existing government and commercial capabilities that 
meet the Joint Requirements Oversight Council-approved JMS 
requirements. No existing COTS solutions exist that will fully satisfy 
these requirements. The program office will procure appropriate COTS 
products that satisfy subsets of these requirements through fixed-price 
contracts and will use Multiple-award Indefinite Delivery Indefinite 
Quantity contracts to procure those capabilities needing additional 
development work to meet the remaining requirements.
    Ms. Sanchez. 58) A piece of cloth that was left in the fuel line by 
the contractor during the manufacturing process led to a 14-month delay 
in AEHF reaching its intended orbit, which in turn cause delay to the 
next two AEHF satellite launches. While the total contract was worth 
nearly $8 billion, the contractor's award fee was only reduced by $19 
million for this mistake. Prior to this problem, GAO reported that AEHF 
suffered a $250 million cost overrun and 2-year delay in launch due to 
parts quality problems.
    <bullet>  To what extent is DOD and the Air Force considering using 
more effective incentives to reduce parts quality problems, especially 
considering the challenges and delays associated with getting the first 
AEHF satellite to its intended orbit?
    <bullet>  How does the Air Force quantify the cost of delays in 
procuring specific capability to the warfighter?
    General Shelton. 58) Following the launch of AEHF-1, the MILSATCOM 
Program Office restructured the prime contractor incentive plans for 
AEHF 1-4 and incorporated similar incentives in the AEHF-5/6 contract 
to be awarded later this year. These incentive plans address lessons 
learned from the AEHF-1 on-orbit anomaly, reflect an increased focus on 
cost control and account for the shift in program focus as it 
transitions from development to production. The plans ensure any 
additional costs associated with AEHF parts problems leading to 
contractor-induced schedule delays will have a negative impact to the 
contractor's fee.
    Ms. Sanchez. 59) What will the cost savings be from entering into a 
fixed-price contract to procure two AEHF satellites (as part of its 
EASE approach) relative to the cost of procuring two such satellites 
separately? If so, what are the anticipated savings?
    General Shelton. 59) In 2009, Air Force Space Command estimated the 
cost of purchasing AEHF Space Vehicle (SV) 5 in FY12 and AEHF SV 6 in 
FY14 was $1.95B per space vehicle. With the Office of the Secretary of 
Defense for Acquisition, Technology and Logistics approved acquisition 
strategy for an Efficient Space Procurement block-buy of AEHF SV 5/6, 
the estimated price for each space vehicle is $1.55B. This approach has 
a potential savings of approximately $400M per space vehicle.
    Ms. Sanchez. 60) What do you see as the major challenges ahead?
    General Shelton. 60) Threats in the space domain are increasing 
while our ability to maintain and improve foundational space 
capabilities to meet warfighter requirements is challenged by resource 
constraints. Threats range from environmental factors, such as the 
increasing volume of orbital debris, to deliberate actions by potential 
adversaries. Even in a declining budget environment, we must provide a 
foundational level of space capability if our Nation is to preserve its 
current ability to defend U.S. interests globally.
    Ms. Sanchez. 61) We understand you have asked ULA to provide 
pricing over a range of scenarios from 6 boosters per year for 3 years 
up to 10 boosters a year for 5 years. How will the Government ensure 
that ULA's pricing is fair, reasonable, and accurate, given Defense 
Contract Auditing Agency and GAO's findings that ULA's cost information 
is often erroneous? Is the Air Force conducting an independent review 
of this information?
    General Shelton. 61) The Air Force will follow Federal Acquisition 
Regulation Part 15 negotiation processes to develop and negotiate fair 
and reasonable prices. Auditors from the Defense Contract Audit Agency 
will support the negotiation team. In addition, a joint team composed 
of the National Reconnaissance Office Cost Analysis Improvement Group 
and the Air Force Cost Analysis Agency is performing analyses of costs 
for the RS-68 main engine, RL-10 upper stage engine, systems 
engineering, program management and launch operations. Data gathered 
from these reviews will inform the Air Force negotiating position.
    Ms. Sanchez. 62) What contracting structure will the Air Force 
pursue? Has Air Force determined a quantity or duration for the next 
EELV acquisition, and will this decision impact the request for FY13?
    General Shelton. 62) The EELV Acquisition Strategy, approved 
November 24, 2011, restructures the program to address the challenges 
of lowering costs while maintaining mission success and stabilizing the 
industrial base. It allows for the accumulation of sufficient pricing 
information supporting the Air Force decision on quantity and contract 
length and is based on multiple phases. The first phase request for 
proposal was released March 23, 2012. This phase begins in FY13 and 
involves an annual commitment of launch services with concurrent 
opportunities to certify new entrants. The request for proposal 
requires the contractor to provide prices for a range of quantities, 
from six to ten cores, over a contract period of three to five years. 
Specific decisions about unit quantities and contract duration are 
scheduled for summer 2012, allowing the Air Force the opportunity to 
balance contractual commitments with operational requirements, budget, 
cost reductions and the potential for competition. The FY13 Phase 1 Buy 
contract will include a cost-plus incentive fee provision for Launch 
Capabilities and a firm-fixed price provision for Launch Services. We 
project full and open competitions for the follow-on phases.
    Ms. Sanchez. 63) Can you outline, specifically, the work product 
that is included in so-called mission assurance costs? Are there 
efficiencies the Air Force can achieve in this area?
    General Shelton. 63) Mission assurance is a rigorous, continuous 
technical and management process employed over the life-cycle of a 
launch system to ensure mission success. There are two distinct facets 
to mission assurance. Integrated mission assurance is accomplished by 
the organizations involved in the launch vehicle design, production, 
testing and launch processing. Independent mission assurance, a crucial 
component of the success of National Security Space launches, is often 
identified with ``mission assurance costs.'' This effort includes a 
number of technical reviews and analyses tailored for each mission, 
enabling a launch readiness independent assessment. It comprises less 
than 5% of the launch enterprise total costs, yet its value to the 
overall enterprise is hard to overstate. In fact, the Space Launch 
Broad Area Review, conducted just over ten years ago, recommended we 
return to in-depth mission assurance following a series of launch 
failures.
    The Air Force will continue to encourage efficiencies without 
impacting mission success. The current launch capability contract, 
signed June 2011, includes a mission success performance incentive 
ensuring focus on mission requirements and a cost control incentive 
motivating the contractor to find efficiencies within its operations.
    Ms. Sanchez. 64) What is the current backlog of Air Force booster 
cores purchased from ULA for 35 missions that have not yet launched? 
Given this backlog of orders, why have prices increased so 
significantly?
    General Shelton. 64) Many factors contribute to the increasing 
costs of EELV boosters. Examples include buying boosters one at a time, 
production breaks, production rework, subsequent recertification, 
annual inflation and a reduced supplier business base (particularly 
from propulsion system suppliers). The backlog includes all missions 
from the National Security Space partners. The National Reconnaissance 
Office, Navy, Air Force, and Australia have 32 rocket booster cores on 
order to support 28 mission launches. This includes Delta IV Heavy 
missions which require more than one core. Of the 32 cores, 17 are in 
the production flow for launches in FY12 and FY13. Another 9 cores are 
projected to launch in FY14. The remaining cores are projected to fly 
out by FY16, exhausting the backlog. The backlog does not affect the 
current vehicle pricing as the program's initial inventory of 
components and smaller follow-on lot quantity buys are being depleted.
    Ms. Sanchez. 65) What types of ``off-ramps'' are you considering to 
the block buy, if/when a New Entrant is qualified?
    General Shelton. 65) To facilitate potential new entrant 
certification, we identified two missions on which new entrant launch 
providers may bid: the Space Test Program--2 and the Deep Space Climate 
Observatory. These Evolved Expendable Launch Vehicle class-missions 
will provide an opportunity for potential new entrants to gain 
satellite launch experience facilitating vehicle certification. Once a 
new entrant is certified, we will compete launch services not covered 
under the FY13 Phase 1 Buy. When this phase expires and new entrants 
are certified, we intend to conduct future acquisitions in a full and 
open competition for launch services.
    Ms. Sanchez. 66) How will the cost of ULA launches versus new 
entrants be compared given that the Government is funding the ULA 
overhead?
    General Shelton. 66) Air Force Space Command is developing the 
competition approach for missions above the FY13 Phase 1 Buy contract 
amounts. If new entrants are certified when this period expires, the 
Air Force will conduct a full and open competition using an on-orbit 
pricing approach that aggregates all aspects of mission costs into 
firm-fixed-price contracts.
    Ms. Sanchez. 67) Should the launch schedule slip, as has 
historically been the case, how will the excess inventory the Air Force 
builds up effect competition from New Entrants? How much generally are 
the storage costs per booster, and who pays those costs? Is the Air 
Force working with the contractors to decrease the cost of storage and 
ensure that the price is reasonable given the requirements?
    General Shelton. 67) Most upcoming Air Force launches are recurring 
flights for programs that have already launched satellites supporting 
their respective missions; therefore, these satellites are very 
similar, if not identical, to their predecessors. This reduces the 
chance of development or production delays, and increases the 
likelihood these satellites will launch on schedule. We do not foresee 
a need to store launch vehicles. In addition, we are working the Atlas 
``white tail'' concept to provide a common booster core for Atlas 
rockets, and the Delta Fleet Standardization to introduce a common RS-
68 engine across all Delta IV variants. These two efforts will increase 
booster assignment flexibility and reduce launch delays.

    Ms. Sanchez. 68) As you know, Section 1248 of the FY2010 National 
Defense Authorization Act directed the Secretary of Defense and the 
Secretary of State to carry out an assessment of the national security 
risks of removing satellites and related components from the United 
States Munitions List. That report is now almost 2 years late. When 
will the Section 1248 report be delivered? What month can we expect 
delivery? What are the risks the U.S. space industrial base of not 
moving some of our Nation's commercial satellite products off of the 
U.S. munitions list? Is DOD conducting a review of these risks?
    Mr. Schulte. 68) The Section 1248 report will be delivered to 
Congress on April 18, 2012. The report identifies some categories of 
satellites that can be moved from the U.S. Munitions List (USML) to the 
Commerce Control List (CCL) without undue risk to national security. 
Further, the report finds that U.S. national security interests would 
be best served by normalizing controls on satellites and related 
components, to enable the development of flexible and timely responses 
to rapid technological changes, consistent with existing authorities 
for all other strategic trade controls. These changes would facilitate 
cooperation with U.S. Allies and export control regime partners, 
strengthen the competitiveness of sectors key to U.S. national 
security, and increase U.S. exports, while maintaining robust controls 
where appropriate to enhance our national security. Ultimately, 
implementing the report's recommendations will help energize the 
industrial base, a key objective of the National Security Space 
Strategy, and build higher fences around fewer items, the goal of the 
Administration's Export Control Reform Initiative.
    Ms. Sanchez. 69) What are the costs and benefits of entering into 
negotiations on the EU Code of Conduct? And what are the risks of not 
doing so? Will our military operations and needs be protected?
    Mr. Schulte. 69) An International Code of Conduct could enhance 
U.S. national security by promoting responsible behavior in a domain 
that is increasingly congested, contested, and competitive. As more 
countries and companies field space capabilities, it is in our interest 
that they act responsibly and that the safety and sustainability of 
space are protected. A widely subscribed Code could encourage 
responsible space behavior and single out those who act otherwise, 
while reducing the risk of mishaps, misunderstandings, and misconduct. 
Debris mitigation standards, guidelines for reducing radiofrequency 
interference, and shared space situational awareness could help protect 
space and the advantages we derive from its use.
    We are committed to ensuring that any Code would not limit, but 
rather strengthen, U.S. national security. The EU draft is not legally 
binding, recognizes the right of individual and collective self-
defense, and is a good foundation for an International Code. A Code 
would focus on activities, rather than unverifiable capabilities. The 
U.S. Government has been closely consulted by the EU on its draft, and 
we will continue to shape an International Code through active 
participation in international discussions. DOD assessed the draft EU 
Code's operational impact and is developing steps to ensure that a 
final International Code fully supports U.S. national security 
interests. We are committed to keeping Congress informed as we progress 
through the long-term Code development process.
    Ms. Sanchez. 70) What do you see as the major challenges ahead?
    Mr. Schulte. 70) We are challenged by a space environment that is 
increasingly congested, with more than 22,000 trackable man-made 
objects in orbit; contested, by an ever-increasing number of man-made 
threats; and competitive, as the U.S. competitive advantage and 
technological lead in space erode. The National Security Space Strategy 
(NSSS) addresses these challenges, but must be implemented in the 
context of a fourth ``c''--constrained. As we develop future 
architectures, the growing challenges associated with the budget 
deserve our attention as much as the growing challenges in space.

    Ms. Sanchez. 71) As you know, Section 1248 of the FY2010 National 
Defense Authorization Act directed the Secretary of Defense and the 
Secretary of State to carry out an assessment of the national security 
risks of removing satellites and related components from the United 
States Munitions List. That report is now almost 2 years late.
    A) When will the Section 1248 report be delivered? What month can 
we expect delivery?
    B) What are the risks the U.S. space industrial base of not moving 
some of our Nation's commercial satellite products off of the U.S. 
munitions list?
    C) Is DOD conducting a review of these risks?
    Mr. Klinger. 71) A) The Section 1248 Report was delivered to 
Congress on/about 19 April 2012.

    B) We recognize that it is in our national security interest to 
maintain a robust space industrial base; our goal is to modify the 
controls placed on those satellites and related components that are 
widely available, while focusing stricter controls on those space 
technologies critical to our national security.
    The rapid pace of technological development in the field of space 
exploitation poses unique challenges and risks to the space industrial 
base. Therefore, U.S. national security interests would be best served 
by normalizing controls to enable the development of flexible and 
timely responses to these technological changes, consistent with the 
President's existing authority for all other strategic trade controls.

    C) DOD Analysis is based on the Export Control Reform USML rewrite 
process approved by the Deputies Committee.
        a)   This systems engineering approach defines the most 
        critical end items, components and technologies that provide 
        the U.S. military its fighting edge (e.g., mission systems on 
        airframes), and assesses risk.
        b)   Comprehensive deliberations among operators and subject 
        matter experts resulted in realistic determinations on what are 
        important for military or intelligence operations and what 
        should be controlled on the USML.
        c)   Conversely, items that were designed for military end-use 
        but are identical to those used in dual-use purposes, or do not 
        provide unique military or intelligence capability, were deemed 
        to no longer require control on the USML and were moved to 
        Commerce controls.
    Ms. Sanchez. 72) A piece of cloth that was left in the fuel line by 
the contractor during the manufacturing process led to a 14-month delay 
in AEHF reaching its intended orbit, which in turn cause delay to the 
next two AEHF satellite launches. While the total contract was worth 
nearly $8 billion, the contractor's award fee was only reduced by $19 
million for this mistake. Prior to this problem, GAO reported that AEHF 
suffered a $250 million cost overrun and 2-year delay in launch due to 
parts quality problems.
    A) To what extent is DOD and the Air Force considering using more 
effective incentives to reduce parts quality problems, especially 
considering the challenges and delays associated with getting the first 
AEHF satellite to its intended orbit?
    B) How does the Air Force quantify the cost of delays in procuring 
specific capability to the warfighter?
    Mr. Klinger. 72) A) The Air Force has taken strong steps to apply 
appropriate incentives to the AEHF contract, as well as with other 
contracts. The most important method is the contract type and 
incentive. Fixed price contracting reduces the government's financial 
liability, and the incentive structure motivates the desired 
performance. For AEHF-1, the program manager restructured the remaining 
fee on that effort, eliminating $15 million and shifting incentives to 
motivate cost performance. Additionally, the contractor conducted a 
thorough investigation of the root cause and applied their best efforts 
to ensure no propulsion problems will reoccur on subsequent satellites.

    B) With respect to warfighter delays, the Air Force coordinates 
very closely with the using Combatant Commands on the fielding 
schedules for all space and other weapons systems. This interaction is 
critical toward mitigating the impacts of any capability delays, which 
often cannot be quantified in terms of cost alone.
    Ms. Sanchez. 73) In 2009, the GAO found that satellites, ground 
control systems, and user terminals in most of DOD's major space system 
acquisitions were not optimally aligned, leading to underutilized 
satellites and limited capability provided to the warfighter--in some 
cases for periods measured in years. Examples include: the MUOS 
satellite which relies on the troubled Joint Tactical Radio System 
(JTRS) program for the new MUOS waveform and radio terminals. The GPS 
satellites in orbit that contain the modernized military M-code signal 
designed for anti-jamming and anti-spoofing but which the warfighter 
will not be able to take advantage of until user terminals go into 
production. And the SBIRS-GEO satellite was launched with a starring 
and scanning sensor. While the GEO-1 satellite is currently on orbit 
with both sensors, the staring sensor will not be utilized for missile 
warning and missile defense for another six years due to a lag in 
ground capability.
    <bullet>  What improvements are being made to maximize use of the 
available capacity and reduce costs due to inefficiencies?
    Mr. Klinger. 73) When OSD(AT&L) recertified the SBIRS program in 
2005 following a Nunn-McCurdy breach, the Air Force was directed to 
prioritize development of essential capability to perform the missile 
warning mission, supported by the GEO scanning sensor, over other 
mission areas.
    SBIRS GEO-1 was launched in May 2011, and upon certification later 
this year, the SBIRS GEO-1 scanning sensor will provide missile warning 
performance that exceeds that of the legacy Defense Support Program 
(DSP). The SBIRS GEO-1 staring sensor is also undergoing initial sensor 
calibration. Today Overhead Persistent Infra-Red (OPIR) Research & 
Development (R&D) and Technical Intelligence (TI) users are receiving 
staring sensor data. Consistent with stakeholder direction and 
priorities, fully-calibrated staring sensor operations in support of 
Missile Warning (MW) and Missile Defense (MD) missions have been 
deferred until the final Increment 2 ground delivery in FY18. The 
remaining work to operationalize the staring sensor for the MW and MD 
missions is in ground system functionality which provides automated 
tasking and tuning to meet some of the most stressing ORD requirements.
    While the SBIRS ground development is phased to optimally manage 
risks within budget constraints and established operational priorities, 
the program is continuing to examine options to accelerate increments 
of staring sensor calibration and mission processing to support Missile 
Warning and Missile Defense prior to FY18. Additionally, as part of the 
Air Force, National Geospatial-Intelligence Agency, and Missile Defense 
Agency Joint OPIR Ground architecture (JOG), the DOD funded initiatives 
to process SBIRS GEO starer data separately from the SBIRS program of 
record with deliveries planned in FY15/16.
    Ms. Sanchez. 74) What do you see as the major challenges ahead?
    Mr. Klinger. 74) The environment in which we operate evolves and 
transforms: while space was not a benign environment during the Cold 
War, even that threat environment has been transformed. U.S. space 
capabilities are subject to a host of new threats including kinetic 
threats, non-kinetic threats such as jamming, and cyber threats 
originating from both state and non-state actors.
    Our space acquisition system has historically focused on 
performance driven, edge-of-technology and engineering capacity; we 
consistently looked to push the edge of the ``art and science'' of the 
possible. We could afford this approach because the ``addressable 
market'' for most of these capabilities was relatively small as 
compared to the overall size of U.S. military forces and intelligence 
users, and these users were often more than not homogenous in their 
needs and demands. Acquisition of space capabilities frequently and 
consistently had a ``first and often unfettered'' call on the resources 
of the Defense Department and Intelligence Community as compared to 
many other capability areas.
    <bullet>  We simply no longer have this luxury; space capabilities 
are now integrated and inextricably bound up in the ``nervous system'' 
of U.S. military forces and intelligence capabilities; users of U.S. 
national security space capabilities are both numerous and diverse in 
their requirements. Often, maintenance and continuity of service have 
become as or more important than pushing the envelope to achieve new 
performance capabilities. This reality is pressing us to improve the 
timelines of delivery of new capabilities. We also must focus on 
ensuring our space architectures are sufficiently robust and resilient 
to operate through natural and man-made threats.
    <bullet>  To ensure continuity of service is uninterrupted, we are 
recapitalizing virtually all of our space ``lines of business'' at 
precisely a time of sharply constrained resources. We are stressing 
affordability even in ongoing programs and stressing with our 
industrial partners to place as much emphasis on engineering for cost 
control and affordability as we have historically placed on engineering 
for performance.
    <bullet>  For industry, our challenge is to plan for more reliable 
and stable demand, more predictable opportunities for introducing new 
upgrades to technology, and more stability at the prime and second/
third tier suppliers. Determining how much, what kind of capabilities 
can we afford to invest in to maintain a viable industrial and 
technology base, while maintaining continuity of service is a critical 
challenge.
    Ms. Sanchez. 75) Can you outline, specifically, the work product 
that is included in so-called mission assurance costs? Are there 
efficiencies the Air Force can achieve in this area?
    Mr. Klinger. 75) Mission assurance activities consume approximately 
5% of the EELV program budget. Products that result from this work 
include the following: hardware pedigree review reports; quality 
assurance inspection reports; booster-to-satellite integration 
inspection, testing, and progress reports; systems engineering 
oversight and reporting for launch vehicle structures, avionics, 
propulsion systems; launch site operations inspections and reports; 
final flightworthiness certification reports; and business/program 
management reports. Each launch is unique and only those activities 
that contribute to the reliability of each launch are funded. In 
addition, the Air Force reviews mission assurance activities annually 
to prune away any that do not materially contribute to reducing the 
risk associated with all launch missions.

    Ms. Sanchez. 76) What do you see as the major challenges ahead?
    Ms. Sapp. 76) There are multiple challenges ahead. Despite a 
constrained budget environment, system fragility and other external 
factors, the NRO must continue to provide the nation with critical 
overhead reconnaissance capabilities. To ensure uninterrupted support 
to operations over the long term, the NRO is implementing an organized, 
considered, and achievable plan to build a robust and adaptable 
architecture and culture. By working with mission partners, the NRO is 
laying the foundation for an optimized overhead intelligence 
collection, collaboration, and synthesis construct that will ensure 
decision advantage for the nation now and in the future.
    Looking Forward: While the challenges the NRO faces are formidable, 
they are by no means insurmountable. Specific initiatives intended to 
implement the organizational, management, and business process changes 
necessary to address these issues include a decoupling of space and 
ground systems specifically intended to accelerate the delivery of new 
capabilities in response to rapidly changing, time-critical user needs. 
This decoupling will consolidate common functions and processes that 
will translate directly into enhanced technical and operational 
flexibility and reduced costs.
    These changes will also help address the consequences of the 
acquisition reform era of the 1990s. One result of acquisition reform 
was the loss of a generation of project managers and systems engineers. 
While most of our engineering workforces are superbly qualified 
technically, many lack the extensive hands-on project management 
experience people previously had in these positions. This loss, coupled 
with the retirement surge in all government agencies, creates a 
particularly challenging workforce environment for the NRO. To address 
these challenges, we continually work to strengthen ties to parent 
organizations. This includes a focus on engineers, project managers, 
contracting officers, and program control officers to ensure the NRO 
workforce has the specific skills needed to effectively execute its 
mission.
    Lastly, the NRO has returned to a more disciplined acquisition 
process that will reverse the negative effects of acquisition reform. 
This places renewed emphasis on systems engineering to capture and 
apply acquisition lessons learned. The NRO is collaborating with the 
Air Force and The National Aeronautics and Space Administration to 
promote strategies that will stabilize the space industrial base. We 
are collaborating with other space organizations on a strategy that 
ties the long- term health of the space industrial base to the long 
term viability of our overhead architecture and its ability to support 
national needs.
    The NRO has a history of resolving seemingly insurmountable 
technical problems to address the nation's highest priority 
intelligence needs. The changes being implemented today represent the 
organization's comprehensive approach to continuing its strong 
acquisition management performance, and approach to ensure the NRO 
continues its tradition of excellence.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. 77) We are just beginning to experience a wave of 
powerful solar storms as the sun approaches solar maximum. Without 
advanced warning systems, geomagnetic flux has the potential to disrupt 
virtually every major public infrastructure system, including power 
grids, GPS, transportation, and telecommunications before we can take 
any effective protective action. Our Nation currently relies on a 
single, failing satellite to provide these warnings, the Advanced 
Composition Explorer (ACE), which is more than 10 years beyond its 
design life. To replace ACE, the National Oceanic and Atmospheric 
Administration (NOAA) in FY2012 is beginning work on refurbishing a 
decade-old spacecraft, DSCOVR, which the Air Force plans to launch. 
What are the Air Force's launch procurement plans for DSCOVR? When will 
the RFP be issued? What is the expected timing of the launch? Will this 
launch occur before ACE's expected demise and during the current solar 
maximum period?
    Mr. Klinger. 77) The USAF plans to execute DSCOVR launch services 
via the Orbital-Suborbital Program-3 (OSP-3) contract, managed by the 
Space and Missile Systems Center's (SMC) Space Development and Test 
Directorate (SMC/SD). The OSP-3 RFP is scheduled for release in April 
2012, with contract award(s) planned for September 2012. The DSCOVR 
mission has been identified as a commercial new entrant launch 
opportunity and could support potential certification of new launch 
vehicle. DSCOVR is planned for a late FY2014 launch, but specific 
launch dates are dependent upon contractor proposals received in 
response to the OSP-3 RFP. It is unknown when the ACE spacecraft will 
become non-operational and current NASA estimates indicate solar 
maximum should occur in the spring of 2013. DSCOVR launch schedule is 
driven by the timelines required for satellite refurbishment, which 
will continue throughout FY2013, and launch-vehicle ordering and 
processing.
    Mr. Franks. 78) DSCOVR has only a 2-year satellite design life. 
Yet, access to sustained operational space weather data is critical for 
defense and national security, as well as our Nation's economic 
infrastructure. What is the fallback plan in the event of either ACE's 
or DSCOVR's technical failure? Shouldn't we be planning for a DSCOVR 
follow-on satellite procurement now?
    Mr. Klinger. 78) The Department of Commerce (DOC) through the 
National Oceanic and Atmospheric Administration (NOAA) has plans to 
include a commercial partner in some of the activities for DSCOVR. NOAA 
is considering commercial data purchase of both solar wind and Coronal 
Mass Ejection (CME) imagery in the future. The DOD is a member of the 
National Space Weather Program which has endorsed DSCOVR as a near-term 
solution given ACE's age. The DOD currently uses the data from ACE to 
support customers and is supporting the DSCOVR launch in order to 
continue this valuable data being obtained from Lagrange 1.
    Mr. Franks. 79) Last year, this committee, in its version of the 
FY2012 National Defense Authorization Act, stated of DSCOVR: ``The 
committee is also aware of commercial data purchase solutions that 
could meet the Government's space weather data needs by fiscal year 
2014 . . . . The committee encourages the Department of Defense to work 
with the NOAA to consider a competitively acquired commercial 
solution.'' Are you aware of any plans by the Air Force or NOAA to 
pursue a commercial solution as a follow-on to DSCOVR? What are your 
feelings about the commercial industry being able to fulfill this 
mission requirement?
    Mr. Klinger. 79) The Air Force is supporting the launch of DSCOVR. 
The DOD participates in the National Space Weather Program and shares 
the national view that space weather data from Lagrange 1 is important. 
The options for a follow-on to DSCOVR are many and varied. All feasible 
options will be considered in light of the current fiscally constrained 
environment that impacts both the Department of Commerce and DOD.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. 80) General Shelton and Mr. Klinger, Operationally 
Responsive Space (ORS) had been a major priority for the Department 
since 2006. Can you explain why this program is being terminated? What 
plans if any does the Air Force have to sustain the ORS mission? And, 
on a point I believe is absolutely critical, how will this provide more 
responsive and timely space capabilities to the warfighter?
    General Shelton. 80) We plan to restructure the ORS program to 
incorporate the ORS tenants of responsiveness and resiliency across our 
space programs, to include programs such as the Advanced Extremely High 
Frequency Satellite, Space Based Infrared Systems, Global Positioning 
System III Operational Control Segment, Space Control Technology 
Insertion, and Technology Transfer programs. Beginning in 2013, we plan 
to meet warfighter needs for responsive space capabilities through 
programs of record and mechanisms such as the Joint Urgent Operational 
Needs process.
    The Space and Missile Systems Center's Space Development and Test 
Directorate is sustaining the ORS-1 space vehicle and ground components 
through the life of the system with approximately $7M/year of Overseas 
Contingency Operations funds.
    Mr. Langevin. 81) How will you support the ORS-1 satellite launched 
only 9 months ago with the termination of the Operationally Responsive 
Space Office?
    General Shelton. 81) Our Space and Missile Systems Center's Space 
Development and Test Directorate is the acquisition and sustainment 
manager for ORS-1. ORS-1 sustainment is funded through Overseas 
Contingency Operations funds, at approximately $7M/year. The 
Directorate is prepared to support the space vehicle and ground 
components and deliver vital capabilities to the warfighter through the 
life of the system.
    Mr. Langevin. 82) General, as I mentioned last year, I remain 
concerned about the increasing challenges of U.S. access to space. What 
options are and should be considered to lower the cost of access to 
space?
    General Shelton. 82) To reduce the overall cost of access to space 
in the near-term, the Air Force is pursuing a strategy based upon 
procuring a planned number of cores and launches each fiscal year and 
the introduction of competition. Steady rate procurement allows the 
contractor to pursue economic order quantity buys, make investments to 
reduce overall cost and to take advantage of manufacturing learning 
curves. New entrant provisions to compete for Evolved Expendable Launch 
Vehicle class missions will reduce risk and provide the opportunity to 
decrease program costs.
    Over the long-term, we will continue to explore ways to provide 
lower cost launch capability. We are looking outside the current 
paradigm to achieve dramatic savings. Along those lines, we are 
partnering with the Air Force Research Lab in the development of next 
generation technologies and a new domestically produced hydrocarbon 
main engine. We are also pursuing disaggregated architectures for our 
space systems as well as encouraging commercial providers to find new/
innovative ways to access space.
    Mr. Langevin. 83) What is the Air Force doing to ensure newer 
entrants like SpaceX have access to the space launch business and the 
ability to compete for DOD space launch contracts?
    General Shelton. 83) The process is in place to provide new 
entrants the opportunity to compete for National Security Space 
launches. The Air Force, National Reconnaissance Office and National 
Aeronautics and Space Administration released the New Entrant 
Certification Strategy in October 2011. It defines the coordinated 
certification strategy for commercial new entrant launch vehicles and 
it is anchored on the existing National Aeronautics and Space 
Administration model. The United States Air Force Launch Services New 
Entrant Certification Guide also was released in October 2011. The 
guide provides the Air Force's risk-based approach to certify new 
entrant launch companies for Evolved Expendable Launch Vehicle 
missions, and it lists the criteria any new entrant must meet.
    To facilitate the certification of potential new entrants, Air 
Force Space Command identified two missions on which new entrant launch 
providers may bid: the Space Test Program--2 and the Deep Space Climate 
Observatory. These Evolved Expendable Launch Vehicle-class missions 
will provide an opportunity for potential new entrants to gain 
experience in satellite launch to facilitate vehicle certification. 
Once a new entrant is certified, we will compete the launch services 
needs not covered under the FY13 Phase 1 Buy. When this phase expires 
and new entrants are certified, we intend to conduct future 
acquisitions in a full and open competition for launch services.

    Mr. Langevin. 84) General Shelton and Mr. Klinger, Operationally 
Responsive Space (ORS) had been a major priority for the Department 
since 2006. Can you explain why this program is being terminated? What 
plans if any does the Air Force have to sustain the ORS mission? And, 
on a point I believe is absolutely critical, how will this provide more 
responsive and timely space capabilities to the warfighter?
    Mr. Klinger. 84) With the successes of the Operationally Responsive 
Space (ORS) programs, the Department decided to incorporate the concept 
of operationally responsive space into the Air Force Space & Missile 
Systems Center (SMC) to increase resiliency, survivability and 
flexibility across all DOD space programs.
    Transition efforts are underway to fully integrate responsive space 
principles into space architectures and Space Modernization Initiatives 
to:

    <bullet>  Develop enablers to ensure resilience, survivability and 
flexibility
    <bullet>  Explore space mission augmentation options
    <bullet>  Incorporate responsiveness into Research and Development 
(R&D) efforts across other platforms
    <bullet>  Integrate lessons learned from ORS accomplishments.

    By integrating responsive space into the mission area platforms in 
both R&D and acquisition practice, the Department will continue to 
provide responsive and timely space capabilities to the warfighter.
    Additionally, the Joint Staff has an extremely responsive and 
proven Joint Urgent Operational Needs (JUON) and newer Joint Emergent 
Operational Needs (JEON) process which will streamline JROC validation 
to expedite satisfaction of Combatant Commander urgent needs.
    Mr. Langevin. 85) How will you support the ORS-1 satellite launched 
only 9-months ago with the termination of the Operationally Responsive 
Space Office?
    Mr. Klinger. 85) ORS-1 operations and sustainment responsibilities 
including anomaly resolution, processing enhancements, configuration 
control, and ground segment updates, will be assumed by the Air Force 
Space & Missile Systems Center (SMC) through end of satellite life.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. 86) Now that ORS-1 has been launched and 
declared operational, how would you characterize the performance of 
ORS-1 in fulfilling the Urgent Need it was originally intended to 
satisfy? Given the plans for ORS funding to be discontinued in the 
President's Budget Request, how will Urgent Needs be met in the future? 
What process will remain in place to address Urgent Needs?
    General Shelton. 86) The ORS-1 mission is successful in meeting the 
United States Central Command's (USCENTCOM) requirements which it was 
designed to satisfy. In a December 2011 memo, the USCENTCOM-
Intelligence, Surveillance, Reconnaissance (ISR) Director stated, 
``CENTCOM is extremely satisfied with ORS-1. It has met or exceeded its 
projected capabilities and additional capabilities and applications 
continue to unfold. ORS-1 provides superb collection considering its 
design limitations and CENTCOM will continue to rely on its 
capabilities as an integral component to our ISR architecture and 
collection plan.''
    We plan to restructure the ORS program to incorporate the ORS 
tenants of responsiveness and resiliency across our space programs, to 
include programs such as the Advanced Extremely High Frequency 
Satellite, Space Based Infrared Systems, Global Positioning System III 
Operational Control Segment, Space Control Technology Insertion, and 
Technology Transfer programs. Beginning in 2013, we plan to meet 
warfighter needs for responsive space capabilities through programs of 
record and mechanisms such as the Joint Urgent Operational Needs 
process.
    Mr. Ruppersberger. 87) The Space Test Program has a distinguished 
45-year history of fulfilling a requirement for low-cost access to 
space for developmental technologies and science experiments. Given the 
plans for dissolution of the Space Test Program as envisioned in the 
President's Budget Request, how will this ongoing requirement be met in 
the future?
    General Shelton. 87) The Space Test Program funding was eliminated 
due to higher Department of Defense priorities. The President's Budget 
includes significant investment in space research by the Air Force 
Research Laboratory, Defense Advanced Research Projects Agency and 
other Service laboratories.

    Mr. Ruppersberger. 88) As you know, the report directed by Section 
1248 of the FY10 Defense Authorization was due to the defense 
congressional committees in April 2010--almost 2 years ago. While the 
Congress received an interim report on this topic last summer, it has 
yet to receive the final report. In the meantime, the U.S. satellite 
industrial base continues to struggle to keep pace with its global 
competitors in what is an intensely competitive international 
marketplace. In fact, a November 2011 study on the health of the space 
industrial base, entitled ``U.S. Industrial Base Analysis for Space 
Systems,'' conducted by The Tauri Group under contract to OSD AT&L 
Industrial Policy, cites 11 space technologies of ``high risk'' due to 
the absence of U.S. suppliers or a single U.S. supplier, and 17 areas 
``at risk'' due to limited suppliers, suppliers with a potential to 
create bottlenecks, those with workforce issues, and anticipated cost 
increases. As our Nation moves into an era of austere Government 
budgets, it would appear that sustaining our defense industrial base 
through a period of shrinking budgets and programs is going to be of 
even greater importance. Rather than sustaining portions of this 
industrial base via the expenditure of funds, the satellite sector 
appears to be one area where regulatory change could have a significant 
impact on the health and sustainability production lines of crucial 
importance to the most exquisite of our national defense systems. When 
will the Section 1248 report be delivered? And, do you agree that 
moving some of our Nation's commercial satellite products off of the 
U.S. munitions list could have a significant positive impact on the 
U.S. space industrial base? Do you believe that changing the current 
statute is in fact a national security imperative in order to sustain 
this industrial base?
    Mr. Schulte. 88) The Section 1248 report will be delivered to 
Congress on April 18, 2012. The report identifies some categories of 
satellites that can be moved from the U.S. Munitions List (USML) to the 
Commerce Control List (CCL) without undue risk to national security. 
Further, the report finds that U.S. national security interests would 
be best served by normalizing controls on satellites and related 
components, to enable the development of flexible and timely responses 
to rapid technological changes, consistent with existing authorities 
for all other strategic trade controls. These changes would facilitate 
cooperation with U.S. Allies and export control regime partners, 
strengthen the competitiveness of sectors key to U.S. national 
security, and increase U.S. exports, while maintaining robust controls 
where appropriate to enhance our national security. Ultimately, 
implementing the report's recommendations will help energize the 
industrial base, a key objective of the National Security Space 
Strategy, and build higher fences around fewer items, the goal of the 
Administration's Export Control Reform Initiative.

    Mr. Ruppersberger. 89) Recognizing the severe constraints of the 
current fiscal environment, and given that some programs must be cut or 
limited so that others can be funded, it appears that numerous small, 
low-cost, innovative programs have been cut to preserve funding for a 
few big-ticket programs with a history of cost overruns. Doesn't this 
reward and perpetuate the wrong type of behavior and eliminate the 
possibility of creating new models of program development and 
execution?
    Mr. Klinger. 89) With the challenge to balance $450B in budget cuts 
across the years, all programs, big and small, were individually and 
collectively assessed. No, DOD program escaped thorough examination. 
Funding was cut from some small and large programs where the Department 
determined adequate risk could be assumed. This year, the Department's 
space initiatives and efficiencies include increasing, restructuring, 
and where necessary terminating or delaying programs to better deliver 
critical space capabilities. The Department's budget proposal continues 
to pursue satellite block buys with incremental funding to avoid costly 
production breaks, preserve the most critical industrial base 
capabilities, and reduce non-recurring engineering costs for the 
procurement of the Advanced Extremely High Frequency (AEHF) and Space 
Based Infrared System (SBIRS) replenishment.
    The Department's Better Buying Power (BBP) initiative establishes 
and requires major programs to be executed within ``Should-Cost'' 
estimates with accountability and consequences. Additionally, BBP 
includes contracting initiatives increasing block buys or increasing 
competition, where prudent, to find efficiencies and savings. These BBP 
initiatives have been applied to large critical space programs such as 
AEHF satellites system, SBIRS satellites, Evolved Expendable Launch 
Vehicle, and the much used Global Positioning System in the FY13 budget 
build. Initiatives are already underway to continue to ``reap'' savings 
from BPP in large space programs as FY14 budget process begins.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
